<html>
<title> - MENTORING AND COMMUNITY-BASED SOLUTIONS TO DELINQUENCY AND YOUTH VIOLENCE IN PHILADELPHIA</title>
<body><pre>[Senate Hearing 110-32]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 110-32

   MENTORING AND COMMUNITY-BASED SOLUTIONS TO DELINQUENCY AND YOUTH 
                        VIOLENCE IN PHILADELPHIA

=======================================================================

                             JOINT HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY

                                and the

 SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
                            RELATED AGENCIES

                                 of the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2007

                               __________

                       PHILADELPHIA, PENNSYLVANIA

                               __________

                          Serial No. J-110-15

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2007
35-304 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director

                                 ------                                
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                  Terrence E. Sauvain, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Labor, Health and Human Services, and Education, and 
                            Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             ARLEN SPECTER, Pennsylvania
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
RICHARD J. DURBIN, Illinois          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              TED STEVENS, Alaska
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
ROBERT C. BYRD, West Virginia (ex 
    officio)

                           Professional Staff

                              Ellen Murray
                              Erik Fatemi
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                    Sudip Shrikant Parikh (Minority)
                         Candice Ngo (Minority)
                         Jeff Kratz (Minority)

                         Administrative Support
                              Teri Curtin



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania, (guest)..........................................     2

                               WITNESSES

Carroll, Jennifer, Director, Match Support, Big Brothers Big 
  Sisters of America, Southeastern Pennsylvania, Philadelphia, 
  Pennsylvania...................................................    26
Delaney, John, Deputy District Attorney for the City of 
  Philadelphia, Philadelphia, Pennsylvania.......................    11
Fair, David, Vice President for Community Impact, United Way of 
  Southeastern Pennsylvania, Philadelphia, Pennsylvania..........    31
Harkavy, Ira, Associate Vice President and Founding Director, 
  Center for Community Partnerships, University of Pennsylvania, 
  Philadelphia, Pennsylvania.....................................    34
Johnson, Sylvester, Police Commissioner, City of Philadelphia, 
  Philadelphia, Pennsylvania.....................................    10
McClanahan, Wendy, Vice President for Research, Public/Private 
  Ventures, Philadelphia, Pennsylvania...........................    27
Meehan, Patrick, U.S. Attorney, Eastern District of Pennsylvania, 
  Philadelphia, Pennsylvania.....................................     4
Pennington, Mike, Juvenile Justice Specialist, Pennsylvania 
  Commission on Crime and Delinquency, Philadelphia, Pennsylvania    29
Ramos, Pedro, Managing Director, City of Philadelphia, 
  Philadelphia, Pennsylvania.....................................     8
Vallas, Paul, Chief Executive Officer, School District of 
  Philadelphia, Philadelphia, Pennsylvania.......................    13
Zahorchak, Gerald L., Secretary of Education, Pennsylvania 
  Department of Education, Harrisburg, Pennsylvania..............     5

                       SUBMISSIONS FOR THE RECORD

Carroll, Jennifer, Director, Match Support, Big Brothers Big 
  Sisters of America, Southeastern Pennsylvania, Philadelphia, 
  Pennsylvania, statement........................................    41
Fair, David, Vice President for Community Impact, United Way of 
  Southeastern Pennsylvania, Philadelphia, Pennsylvania, 
  statement......................................................    46
Harkavy, Ira, Associate Vice President and Founding Director, 
  Center for Community Partnerships, University of Pennsylvania, 
  Philadelphia, Pennsylvania, statement..........................    53
Johnson, Sylvester, Police Commissioner, City of Philadelphia, 
  Philadelphia, Pennsylvania, statement..........................    60
McClanahan, Wendy, Vice President for Research, Public/Private 
  Ventures, Philadelphia, Pennsylvania, statement................    63
Meehan, Patrick, U.S. Attorney, Eastern District of Pennsylvania, 
  Philadelphia, Pennsylvania, statement..........................    75
Pennington, Mike, Juvenile Justice Specialist, Pennsylvania 
  Commission on Crime and Delinquency, Philadelphia, 
  Pennsylvania, statement........................................    80
Ramos, Pedro, Managing Director, City of Philadelphia, 
  Philadelphia, Pennsylvania, statement..........................    84
Zahorchak, Gerald L., Secretary of Education, Pennsylvania 
  Department of Education, Harrisburg, Pennsylvania, statement...    91

 
   MENTORING AND COMMUNITY-BASED SOLUTIONS TO DELINQUENCY AND YOUTH 
                        VIOLENCE IN PHILADELPHIA

                              ----------                              


                       MONDAY, FEBRUARY 19, 2007

        U.S. Senate, Committee on the Judiciary, and the 
            Subcommittee on Labor, Health and Human 
            Services, and Education, and Related Agencies, 
            Committee on Appropriations, Philadelphia, PA.
    The subcommittee met at 10:05 a.m. at Constitution Hall, 
111 South Independent Mall, Philadelphia, Pennsylvania, Hon. 
Arlen Specter, presiding. Present: Senator Casey.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Good morning, ladies and gentlemen. This 
is a joint field hearing of the Senate Judiciary Committee and 
the Appropriations Subcommittee on Labor, Health, Human 
Services, and Education, the subcommittee which has the 
jurisdiction over the funding for education.
    Senator Casey and I have convened this hearing to address 
the issue of mentoring to try to deal with the at-risk youth in 
the region. There is no need to recite the statistics on 
homicides or juvenile homicides or juvenile delinquency or 
juvenile arrest. Suffice it to say that in this city today 
there is a veritable war in progress. Very hard to walk down 
the streets of many sections of this city without being at 
risk. It is a problem which has deteriorated materially since 
the days when I was district attorney of this city, and there 
have been many, many efforts at the governmental level and at 
the citizen level to cope with this issue, and none, 
regrettably, with much success.
    In talking to this issue, talking over this issue with the 
Governor, whom I have known many years, since he was chief of 
the homicide division in my district attorney's office, and 
with the district attorney, who I've known for many years, 
since he was an assistant in my office, and in discussing the 
matters with the school officials--the distinguished 
superintendent of schools, Paul Vallas, who is a witness here 
today--in searching for some measure, the thought arose, on the 
short term, that mentoring might pose some realistic chance to 
deal with at-risk youth.
    Mentoring is an arrangement where we find an adult, or an 
older young person, who will take under his or her wing those 
in the 9-to 17-year-old category. When I was district attorney, 
we had a program called Take a Brother, modeled after the Big 
Brother program, where young people in their 17s and 18s and 
19s would mentor somebody 11, 12, or 13. And a big part of what 
we are trying to do now is to bring some public focus on the 
mentoring approach to see if we can find volunteers. One 
statistic that I would like to know is an approximation of how 
many at-risk young people there are in this city today. And 
then, I would like to know how many mentors we have available 
to deal on a one-on-one basis with these individuals. And then, 
we need to know how many more mentors we need to attract. I 
have a sense, an instinct, that there are many people who would 
come forward in our community and in the outlying areas to be 
mentors if there was a program in existence and if there was 
some realistic likelihood that their efforts, in conjunction 
with many other efforts, would produce some response to this 
problem.And that is what we're going to be looking at here 
today.
    We had an earlier meeting, on January the 19th, with 
Representatives from the city. The mayor was present. Governor 
had his representatives there. The district attorney was 
present. And this is the next step in what will be a continuing 
effort.
    On the continuing resolution, which was signed into law 
last week, with the problems of Philadelphia in mind, we got an 
additional $25 million for mentoring nationwide. That, frankly, 
is not enough money, but, with the budget constraints, it is a 
start. And our city and State are eligible for competition to 
try to bring some of that money.
    Senator Casey and I have in mind to try to bring additional 
funds on the appropriations process this year. And that is why 
we have representatives from the Judiciary Committee, Matt 
Minor and Lisa Owings, who have been working on this matter for 
a long period of time, and ``Senator Bettilou Taylor,'' from 
the Appropriations Committee. I call her ``Senator Taylor.'' 
She's actually the 101st Senator. She's more powerful than most 
Senators when you have the lead hand with her sharp pencil and 
the distribution of $147 billion, that's not chopped liver.
    Well, I'm joined by my distinguished colleague Senator 
Casey today. We have the unexpected pleasure of his 
participation, because he was scheduled to be in Iraq today. I 
don't know why any intelligent young man like Senator Casey 
would choose Iraq over the Constitution Center; but then, he's 
devoted to his duty and scheduled to make the trip there on the 
very tough issues confronting us. But he and I had to work on 
Saturday. We had a vote. And that has kept him in the United 
States, so we're the beneficiary of that, because he is with us 
here today.
    And I'm now very pleased to yield to my colleague.

STATEMENT OF HON. ROBERT P. CASEY, JR., A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Well, Senator, thank you very much.
    And I want to reiterate what--something I said at our 
meeting, a month ago, reiterating my gratitude, as I'm sure 
everyone this room is grateful, for Senator Specter's 
leadership on these critical issues. And I think it's 
emblematic of his leadership on so many issues, where he 
approaches an issue from the perspective of how we can improve 
on something that's confronting the people of Pennsylvania and 
the people of America. And he does it in a bipartisan way. He 
does it through eliciting testimony and information from 
experts. And he does it in a way that shows the kind of focused 
leadership that he's provided.
    I was thinking, today, that one of the--one of the great 
sound bites out there that we don't hear enough of is actually 
the name of a national organization. Many people here will know 
the name of this organization. And it says, very simply, 
``Fight Crime, Invest in Kids.'' And a lot of what we're 
talking about here today is gets to that basic priority, which 
is, unless we make the effort, here in the State and across 
America, to focus on children in the earliest days and months 
and years of their lives, all--everything after that's going to 
be that much more difficult--and, in some cases, impossible--to 
improve upon the chance that they can lead healthy and 
productive lives--out of jail, out of harm's way, so to speak.
    So, we're--I'm grateful to be part of this. And I know that 
the members of both panels will contribute greatly to what my 
understanding is of this challenge, as well as Senator 
Specter's. And we want to make sure that we bring this 
information back to the United States Senate to develop 
programs not just for this State, but for programs across the 
country. But I'm grateful that Senator Specter has once again 
brought us together to focus on a problem which goes well 
beyond this city and well beyond this State.
    So, Senator, thank you very much.
    Senator Specter. Thank you very much, Senator Casey.
    We now turn to our very distinguished panel. And our first 
witness is going to be the United States Attorney for the 
Eastern District of Pennsylvania, Patrick Meehan. Patrick 
Meehan did not have the advantage of being an assistant 
district attorney in my office.
    [Laughter.]
    Senator Specter. Because he wasn't old enough.
    [Laughter.]
    Senator Specter. He didn't graduate from college--Bowdoin--
until 1978. My term of DA ended in 1974. But has made up for it 
in the interim, holding his law degree from Temple University, 
and then serving as my chief of staff in the Philadelphia 
Senate office. And that put him in position to become district 
attorney of Delaware County, where he had a very distinguished 
tenure before being appointed to the important position of 
United States Attorney for the Eastern District of 
Pennsylvania.
    Mr. Meehan is an expert in the field, having initiated a 
program which is called the Route 22 Corridor Anti-Gang 
Initiative, on the crescent around the city of Philadelphia, 
all within his district. And I might add that we're going to be 
undertaking similar initiatives in Reading--we're due to be 
there in a few weeks--and later, in the Lehigh Valley and in 
Lancaster, and we may go beyond, based on what we have learned 
here, because this is a problem which confronts virtually every 
community, and as Senator Casey noted, really the entire world.
    We're going to ask the witnesses to stick within the 5-
minute time limit, which is the custom for the Judiciary 
Committee and the Appropriations Subcommittee.
    And we turn the microphone over to you, Patrick.

STATEMENT OF PATRICK MEEHAN, U.S. ATTORNEY, EASTERN DISTRICT OF 
                          PENNSYLVANIA

    Mr. Meehan. Thank you, Senators. And thank you for the 
opportunity to speak about this important issue.
    Combating violence in the neighborhoods is a top priority 
of United States attorneys across the Nation. And, through the 
Department of Justice's signature program, Project Safe 
Neighborhoods, my colleagues and I are coordinating efforts of 
Federal, State, and local law enforcement with community groups 
against gun crime. This includes maximizing the use of Federal 
laws, like the Armed Career Criminal Statutes, which you helped 
to write, and the Hobbs Act, to remove the most dangerous 
criminals from the neighborhoods, and the combat gangs and 
trafficking organizations. But, moreover, I previously served 
for 6 years as a county district attorney, and there our 
juvenile justice system really worked to try to deter crime 
through prevention efforts aimed at our most serious threat, 
which are at-risk juveniles with a propensity towards violence. 
And, therefore, I'm very pleased to have this opportunity to 
share with the committee some of my thoughts.
    I'll focus my remarks on three outstanding programs, which 
include both a mentoring component and a strong law enforcement 
message to at-risk youth who find themselves at a crossroads. 
These programs are the Youth Violence Reduction Project; a 
second program, called Don't Fall Down in the Hood; and a third 
program, the Glen Mills Community Management Services Program. 
A common characteristic of these three programs is a focus on 
comprehensive intervention with young persons that are most 
likely to seriously harm others or to be harmed, themselves. 
Each seeks to deter individuals from choices that increase 
their exposure to harm, while promoting accountability, 
responsibility, and personal development. Each attempts to show 
dangerous juveniles there's an alterative to violence and a 
future beyond crime.
    The first is the Youth Violence Reduction Project. I'll 
speak the least about that, because another colleague will talk 
about it today, but it provides intensive support with 
graduated sanctions for noncompliance for youths age 24 and 
younger who are at the greatest risk of killing or being 
killed. The results have been particularly promising here in 
the city, where it's been instituted through the district 
attorney's office. According to that office, when a comparison 
was made of homicides in three police districts for the years 
just prior to the initiation of this program, the results have 
been significant. For youth 24 and under, homicides decreased 
46 percent in the 24th Police District, 48 percent in the 25th, 
and 9 percent in the short tenure that it's been in work in the 
12th District.
    A second program is Don't Fall Down in the Hood. It's a 
program offered by the Institute for the Advancement of 
African-American Youth. It's a city-funded program that works 
with juvenile offenders ages 14 to 18--again, much of our 
target group--and after their first arrest for narcotics or 
assault or firearms or other offenses. The ultimate goal is to 
reduce the criminal behavior of the offenders while showing 
them how to take advantage of meaningful opportunities in the 
community. The teens are referred to the program mostly from 
the Philadelphia Family Court and the Youth Study Center. As 
part of the program, students receive presentations from 
professionals to educate them about life-and-death decisions. 
According to Archie Leacock, the executive director, Don't Fall 
Down in the Hood has included more than 860 youths. Only 7 
percent have committed an offense after completion of the 
program.
    The third program is the Community Management Services at 
the Glen Mills School. It provides a strong component of 
aftercare. This provides reintegration services for court 
adjudicated juveniles who are returning to a community after 
completing a residential commitment. Like adult prisoners after 
incarceration, they face unique pressures and tough choices 
upon a return to their neighborhoods. Juveniles participate in 
creating a transition plan, are supervised by--face-to-face up 
their reintegration. They receive assistance in school reentry, 
employment search, individual counseling, family meeting, and 
even a 24-hour crisis intervention, if that is necessary. Pre-
adjudication and truancy services are also part of this model.
    Let me conclude my testimony by observing that intensive 
intervention is a critical component of antiviolence efforts, 
but other longer-term interventions play a vital role in 
keeping our communities safe. For example, antitruancy programs 
that that identify chronically truant juveniles, and 
reestablish them in age-appropriate remedial education, are a 
proven deterrent to crime. Former Mayor Wilson Goode and the 
Amachi Program are a great example.
    Unmarried teenage mothers and their children are often the 
greatest risk of becoming entrenched in the lifestyle of 
poverty and family dysfunction. The Nurse/Family Partnership is 
an intervention program which deals with support, education, 
and counseling.
    Let me conclude by saying, law enforcement is one critical 
piece of a solution to the problems of crime and violence, but 
a comprehensive approach, which includes interventions like the 
kinds I've mentioned today, increase the capacity we have to 
keep our neighborhoods safe and to steer young people away from 
bad choices before it's too late.
    [The prepared statement of Mr. Meehan appears as a 
submission for the record.]
    Senator Specter. Thank you. Thank you very much, Mr. 
Meehan.
    We now turn to the leading authority in the Commonwealth of 
Pennsylvania on this subject, and that is Dr. Gerald Zahorchak, 
who's the Secretary of Education, which has the responsibility 
for implementation of Federal and State programs aimed at 
abating youth violence and gangs. Dr. Zahorchak is a graduate 
of St. Francis, a master's degree from Indiana University, a 
Ph.D. from Penn State.
    Thank you for joining us today, Dr. Zahorchak, and we look 
forward to your testimony.

STATEMENT OF GERALD ZAHORCHAK, SECRETARY OF EDUCATION, STATE OF 
                          PENNSYLVANIA

    Mr. Zahorchak. Thank you, Senator. And thanks for the work 
that you're doing at the national and local levels in this 
area. We're very grateful to have the opportunity to speak to 
you today.
    I thought that--I want to tell you that, while I believe 
that most schools are, indeed, safe places, and have been made 
safer in recent years, we have a lot of work to do to improve 
school safety. And I'd like to address, specifically, the 
important issue of student gang involvement.
    In Pennsylvania, we've learned that using student 
assessment data to identify the causes of student academic 
problems is the same type of model that we want to use in 
learning about the root causes of student behavioral problems.
    Today, in Pennsylvania, we're experiencing success in 
raising student achievement in every grade level, in every 
content area. Nowhere is that success more impressive than in 
our lowest-performing schools. Pennsylvania's schools that have 
less than half of their students' population scoring proficient 
on our State test in 2001 have experienced double-digit growth 
increases in proficient scores at every grade level in every 
demographic group, including race, family income, language 
ability, and IEP status. In Pennsylvania, we know our success 
has resulted from our relentless focus on examining student 
achievement data and asking serious questions not only about 
the student achievement, but about the educational practices 
that are most likely to have a positive impact on students in a 
particular classroom in which we increase the level of 
intervention in a school, depending upon the severity of a 
school's needs.
    So, we line up our efforts, in terms of foundation efforts, 
what we can give to support all schools as they continuously 
grow, targeted support to intervene where schools need help, 
and then very intensive support for the districts that need 
corrective action.
    Since school safety concerns encompasses such a broad 
spectrum, I'd like to look at gang topics. And, in the 
testimony, you'll see that the description of gang factors by--
and risk--gangs and risk factors--by sociologists determine or 
define what a ``gang'' means, but typically it's a group of 
kids who identify with each other. Sometimes they fight for 
claim of a neighborhood territory or use common symbols. But 
the--and also perhaps engage in illegal activities. All 
students are at moderate to severe risk of being influenced by 
gangs, gang activities, or risky behavior, in general.
    In responding to that, we think about it in terms of 
prevention and intervention first. And when we think about 
prevention, we think about helping schools understand what they 
can do to promote resiliency, giving kids opportunities, giving 
young people opportunities to have high expectations 
academically and behavioral wise, to be meaningfully engaged, 
to have opportunities to bond with each other, to understand 
clearly the rules of the school and the consequences, and see 
consistent supports for successful behavior, and consequences 
that are supported for non-good--for not-so-successful 
behavior. So, our students have a resiliency from--in terms of 
meaningful engagement, clear and consistent boundaries, as well 
as setting the high expectations.
    We also teach life skills, as well as have unconditional 
support for our students. We think those five or six elements 
really do provide the prevention efforts. And we help schools 
understand ways to get about looking for root causes through 
serious training. In general, Pennsylvania has undertaken many 
steps to increase our school violence prevention efforts. We're 
working closely with the Pennsylvania State Police, the 
Emergency Management Agency, the Commission on Crime and 
Delinquency to support schools in creating comprehensive safety 
plans, and reviewing internal programs for prevention.
    As you know, in Pennsylvania schools are not only required 
to have a safety plan, but to submit it to the Department every 
year, and with a summary of their school safety data. We 
collect and publish, on our Web site, school-by-school reports 
on violence incidents, and we also provide serious technical 
assistance from places such as our Centers for Safety Schools, 
our Annual Safety Schools Conference, and small limited safety 
grants. In addition, in collaboration with our partners at the 
Juvenile Justice Commission and Department of Public Welfare, 
the Department introduced a stronger, more aligned, approach 
and response to truancy which includes a new policy statement, 
effective practices, resources, and strategies that can be used 
by all stakeholders, especially students and their families.
    Our goal in Pennsylvania is to see all students succeed and 
ready for postsecondary education or a career, regardless of 
background or circumstances. It's our partnership with public 
welfare, the Governor's--Children's Commission and others that 
we're building the resiliency framework for schools to build 
protective factors for all schools, although we continuously 
ask our schools to improve their practices and implement an 
aligned, systematic approach to preventing school violence, we 
acknowledge the importance of sufficient resources to support 
our work.
    Last year, Pennsylvania suffered at 20-percent decrease in 
Safe and Drug-Free Schools----
    Senator Specter. Dr. Zahorchak, how much more time will you 
need?
    Mr. Zahorchak. Just 30 seconds.
    Senator Specter. Go ahead.
    Mr. Zahorchak. Thanks, Senator.
    We've experienced the decrease of 20 percent in our Safe 
Schools grant. It's had a negative effect on our school, and 
we're concerned that the President has asked Congress to--for 
continued reductions and elimination of these funds.
    Our schools and communities have to examine the root causes 
of the students' behavioral problems, in the same we do examine 
our academic problems.
    We thank you for giving us the opportunity today to be at 
this----
    [The prepared statement of Mr. Zahorchak appears as a 
submission for the record.]
    Senator Specter. Thank you. Thank you very much, Dr. 
Zahorchak.
    Mr. Zahorchak. Thanks, Senator.
    Senator Specter. We now turn to Mr. Peter Ramos, who is the 
managing director of the city of Philadelphia. That job entails 
the management of all of the departments. Previously, he had 
been city solicitor here. And before that, he was a vice 
president at the University of Pennsylvania, in charge of their 
outreach program, which gave him considerable experience 
directly in this field. He's a graduate of the University of 
Pennsylvania, and magna cum laude from the University of 
Michigan.
    Thank you for being with us today, Mr. Ramos, and we look 
forward to your testimony.

     STATEMENT OF PEDRO RAMOS, MANAGING DIRECTOR, CITY OF 
                          PHILADELPHIA

    Mr. Ramos. Good morning, Senators. On behalf of Mayor John 
F. Street, thank you, Chairman Specter and Senator Casey, for 
giving me the opportunity to testify here today.
    Mr. Chairman, your commitment to addressing the issue of 
youth violence is demonstrated not only by your words, but by 
your actions, such as holding hearings like this one today, and 
providing the leadership to obtain funding to support this 
city's violence initiatives, like the Youth Violence Reduction 
Partnership.
    We all continue to struggle with the challenge of 
addressing the growing problem of violence and the devastating 
effects it has our community, especially our youngest citizens. 
Violence is shattering the dreams and futures of too many 
children and youth in our city. A comprehensive and 
communitywide strategy is needed to address this growing 
violence. The Street administration has invested heavily in 
violence prevention programs, and there is no more important 
priority for this administration than the safety and stability 
of our children and youth.
    A significant component of our comprehensive violence 
reduction strategy is mentoring. My testimony will focus on how 
current violence reduction efforts--specifically, YVRP, which 
has been tied to significant decreases in youth homicide rates, 
and the Adolescent Violence Reduction Partnership--utilize 
mentoring as a key component of their approaches.
    Although we are seeing positive trends in the reduction of 
many major crimes, there has been recent growth in violence 
among youth ages 18 to 24. The number of arrests for violence 
crimes increased by 1 percent between 2004 and 2005. The number 
of arrests for homicide increased by 4 percent between 2004 and 
2005. The number of arrests for rape increased by 3 percent 
between 2004 and 2005.
    One of the city's most notable research-based violence-
reduction strategies is YVRP, which is active in five of the 
city's 24 police districts. This proven model targets youth who 
are most likely to kill or be killed, and provides them with 
intensive supervision, mentoring, and support services. YVRP is 
a partnership among the Philadelphia Police Department, adult 
and juvenile probation, the district attorney's office, the 
managing director's office, the Department Of Human Services, 
Recreation, Behavioral Health, as well as other partner 
agencies, both public and private.
    The young people enrolled in the program are known as 
``youth partners.'' And the paraprofessionals who deliver many 
of these services include--including mentoring, are known as 
``streetworkers.'' The essential elements of YVRP, each of 
which I will describe in detail, are identification, 
surveillance, graduated sanctions, positive supports, including 
mentoring, and gun suppression.
    Identification: YVRP utilizes research-based indicators to 
identify youth 14- or 16-to-24 who are most at risk to kill or 
be killed.
    Surveillance: Streetworkers, police, and probation officers 
provide intensive supervision, usually daily, to monitor the 
youth partners, wherever they are, in their homes, schools, and 
neighborhoods.
    Third, graduated sanctions: When a participating youth 
violates his or her probation, YVRP swiftly imposes sanctions. 
Research has demonstrated that the prompt deployment of 
sanctions can be a key element in deterring further criminal 
behavior.
    Fourth, positive supports and mentoring: Sanctions alone 
are not enough to deter youth people from criminal behavior. 
YVRP streetworkers help youth partners access a range of 
positive supports, including educational opportunities, 
literacy, job placement, and drug treatment.
    A key component of job placement and--a key component of 
positive supports is the mentoring relationship between 
streetworkers and youth partners. Streetworkers are from the 
same neighborhoods and have similar backgrounds as the youth 
partners. This shared context and experience creates a strong 
bond between the streetworker and the youth partner, increasing 
the effectiveness of the streetworker.
    And finally, gun suppression. YVRP is working with local, 
State, and Federal authorities to deter both access to, and use 
of, firearms by young people.
    YVRP was first introduced in the 24th Police District in 
1999, and has since expanded to a total of five police 
districts. Since its inception, approximately 2,100 youths have 
been part of YVRP.
    Given that target population, it is clear that YVRP has 
saved many lives. Through December 2006, only 1.3 percent of 
YVRP youth partners--and I believe that's a total of 22 youth 
partners--have either died or been accused of murder. While a 
single death is too many, the data clearly demonstrate the 
success we have had mentoring 98.7 percent of our youth 
partners who were at highest risk of killing or being killed.
    YVRP has been subjected to rigorous third-party validation, 
and the results are promising, according to research conducted 
by public/private ventures in the police--in the three police 
districts where YVRP was implemented long enough for 
evaluation. My written comments have a summary of that 
analysis.
    I'm going to jump ahead, to say that, given the success of 
YVRP with 16- to 24-year-olds, and the reports of growing 
violence among younger youth, it is logical that this 
initiative be driven down to younger youth, lifetime at-risk 
young offenders between 10 and 12 years of age. The 
Philadelphia Story, a briefing paper published by Philadelphia 
Safe and Sound, documents that we know how to identify youth at 
younger ages who are likely----
    Senator Specter. Mr. Ramos, how much----
    Mr. Ramos [continuing]. To kill or be killed----
    Senator Specter [continuing]. How much more time will you 
need?
    Mr. Ramos. Less than 30 seconds.
    Senator Specter. Thank you.
    Mr. Ramos. And we're doing just that, through the 
Adolescent Violence Reduction Partnership. AVRP is designed to 
intervene with 10- to 15-year old youth at the first sign of 
serious risk behaviors, and connect them with streetworkers, 
and provide support services to help them redirect their lives 
before becoming victims or perpetrators.
    For both YVRP and AVRP, the streetworker naturally takes on 
a role of mentor to the youth, encouraging him or her to make 
positive choices for the future. Natural mentors have been 
demonstrated to be a positive influence for at-risk youth, a 
finding that is validated by the success of the YVRP program.
    Thank you, Senator Specter.
    [The prepared statement of Mr. Ramos appears as a 
submission for the record.]
    Senator Specter. Thank you very much, Mr. Ramos.
    We now turn to Police Commissioner Sylvester Johnson, who 
has risen through the ranks, some four decades of service in 
the uniform of the policeman. When he was the Headquarters 
Investigative Unit head at Hunting Park, he arranged for the 
unit to adopt the Thomas Mifflin School. And to encourage 
officers to provide counseling and direction to the youngsters 
in that school may well be a model for the future, Commissioner 
Johnson, which we'll come to in the question-and-answer 
session. But, for now, we thank you for coming, and we turn to 
you for your testimony.

 STATEMENT OF SYLVESTER JOHNSON, POLICE COMMISSIONER, CITY OF 
                          PHILADELPHIA

    Commissioner Johnson. Good morning, Senator Specter and 
Senator Casey.
    First, I want to thank you for inviting me to this hearing 
on delinquency and youth violence. As you can tell by this 
panel, the subject is critically important to the citizens, to 
the city as a whole. As a government, we must come together to 
protect our children from violence, but, just as important, 
from resorting to violence. There is no higher duty for me 
personally, and for all government, so I thank you for allowing 
me to be part of this proceedings.
    At the beginning, let me state clearly, I believe that law 
enforcement should be the last step in protecting our children. 
I say this, because by the time a child comes to the attention 
of the police, the damage may already be done. I strongly 
believe we need to address the social failures that cause 
children to resort to crime and violence. We need to address 
the factors that create such hopelessness and lack of respect 
in our children.
    Obviously, I don't have all the answers. But what I do know 
is that many children that become victims, criminals, or both, 
come from broken homes. Sometimes there are no parents at all, 
the parents are in jail or they're addicted to drugs. Is it any 
surprise that children turn to violence and crime themselves?
    Everyone agrees we need to target these children at risk of 
becoming victims or killers, and the YVRP is an outstanding 
partnership among government agencies that does just that. In 
fact, John Delaney, from the District Attorney's Office, was 
the founding partner of that program, and I commend him for all 
the hard work that he's done. But, regrettably, we find that--
violence often getting children younger and younger. The VRP 
was originally designed to target--address children from 14 to 
24. But we have children as young as 9 and 10 becoming victims 
and killers, as well. So, the VRP has spun off another program 
called Adolescent Violence Reduction Program to address those 
youth at risk, age 8 and--old.
    Let me state clearly, if we believe in and support these 
programs, they save lives, plain and simple, but I must state 
the children in these programs have been targeted because they 
have already been involved with the police or been victims. 
What we truly need is less children targeted for intervention. 
We need to work together as a community to give our children 
the love, compassion, support, and guidance every child craves. 
This will take strong leaders in government who are willing to 
invest in programs that will not provide immediate results.
    The problem with our children did not occur overnight, nor 
will the solution. We need to explore innovative ways to 
instill the hope and self-worth into our children that'll last 
a lifetime. Historically, this was the role of the family. The 
family, as we know, is--no longer exists for far too many of 
our children. So, we must explore alternate plans that would 
provide the nurturing environment every child requires. I 
believe that social failures at this point in the child's life 
are where the violence and delinquency begins. As I said at the 
beginning, there's no higher duty for government than 
protecting our children, but I believe law enforcement should 
be the last line of defense. The first line of defense is 
finding a way to create a caring and supportive environment for 
each and every child in Philadelphia.
    Thank you.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Senator Specter. Thank you very much, Mr. Johnson.
    Our next witness is Mr. John Delaney, who is the deputy 
district attorney. Previously, he had served as the chief of 
the juvenile section. He's a graduate of the University of 
Notre Dame, and law degree from Villanova, and specializes, in 
his current position, on juvenile violence.
    Thank you for being with us today, Mr. Delaney, and we now 
turn to you.

  STATEMENT OF JOHN DELANEY, DEPUTY DISTRICT ATTORNEY FOR THE 
                      CITY OF PHILADELPHIA

    Mr. Delaney. Thank you, Senator. Good morning.
    Senator Specter, Senator Casey, as you now, I am here on 
behalf of District Attorney Lynn Abraham, who's on a previously 
scheduled trip outside the city. She and I appreciate, Senator 
Specter your longstanding commitment to the safety of the 
citizens of our city, and thank you for the opportunity to 
offer our thoughts today.
    I want to add a couple of comments about the Youth Violence 
Reduction Partnership.
    You've heard from Mr. Meehan and Mr. Ramos about some of 
this program. There are a couple of things that they didn't 
touch on that I think are important to recognize. One is that 
the YVRP has been data-driven. I serve, along with Naomi Post, 
as the co-chair of the YVRP Steering Committee. And YVRP 
started in the 24th District, because that was the section of 
the city that had one sector that was the most violent for 
young people. We define ``young people'' as age 24 and under. 
YVRP has expanded, over the last 7 years, to four additional 
districts, driven each time by how many people were killed in 
that district, how many young people were killed, how many 
young people were shot, how many young people are on probation. 
So, YVRP has been data-driven.
    Second, YVRP is a true partnership. Managing Director Ramos 
mentioned the city agencies that participate, but it's also 
important to note that we partner with the school district, 
with Philadelphia Safe and Sound, and with public/private 
ventures. So, there are a number of agencies brought to the 
table, any of whom can contribute to the partnership, whether 
it's by their resources or their expertise.
    The third characteristic of YVRP that I think it's 
critically important to mention, especially now, is, we focus 
on juveniles and young adults. In our data, we learned that 
only 2 percent of Philadelphia is between the ages of 18 and 
24--young adults--but 22 percent of the homicide victims are 
between the ages of 18 and 24, and 40 percent of the alleged 
murderers are between 18 and 24. So, I would strongly encourage 
you and your colleagues to consider this when trying to create 
funding programs for mentoring for our most at-risk youth. 
Having been the deputy of the juvenile division in the DA's 
office, and like Mr. Meehan, I, too, suffer from having been 
born too late to work for you, Senator Specter, but District 
Attorney Abraham has continued your tradition----
    Senator Specter. We might give you another chance.
    [Laughter.]
    Mr. Delaney [continuing].--District Attorney Abraham has 
continued your tradition of being a zealous courtroom advocate 
for safety, but also viewing her role as much greater than 
that: that of a public servant.
    And in looking at what we have done over the years, I 
served for a number of years in our juvenile division. Now I 
head up our trial division. There's a rich spectrum of services 
available for juvenile delinquents. Not as rich as it should 
be, but a very rich spectrum. That spectrum shrinks 
considerably once the offender reaches his 18th birthday. And, 
unfortunately for us in Philadelphia 18- to 24-year-olds are 
the gravamen, the source, the focus of our problem, in terms of 
young people and violence.
    So, I'd ask you to consider that, in funding programs, that 
there be flexibility included, if at all possible, to allow for 
funding of supportive services to people 18 to 24. It's because 
of the intensive support, and the intensive supervision that 
YVRP couples, that YVRP has shown success in Philadelphia.
    Senator Specter, we appreciate your support. Your staff has 
been to YVRP meetings. Your staff has joined us on targeted 
patrol. YVRP costs about $1.6 million per police district. 
That's because, as Commissioner Johnson alluded to, these young 
people have spent their lives getting enmeshed in situations 
that are very difficult to disentangle. Their lives are filled 
with challenges. It's only through intensive support and 
intensive supervision that we have an opportunity to get those 
young folks, in the words of the YVRP mission statement, to be 
alive at 25, to make it to their 25th birthday.
    We thank you for your ongoing assistance.
    Senator Specter. Thank you very much, Mr. Delaney.
    We now turn to the distinguished chief executive officer of 
the Philadelphia school system, Paul Vallas. Came to 
Philadelphia in 2002. Previously, he had been the CEO of the 
Chicago school system, the third largest in the Nation, and 
turned it from a national reputation of one of the worst to a 
model system. Superintendent Vallas has been very deeply 
involved in the issues of juvenile violence, and has found that 
dealing with that issue in the school system is an 
indispensable prerequisite to getting young people ready for 
the education process.
    Thank you for your service and for being here today, 
Superintendent Vallas, and the floor is yours.

   STATEMENT OF PAUL VALLAS, CHIEF EXECUTIVE OFFICER, SCHOOL 
                    DISTRICT OF PHILADELPHIA

    Mr. Vallas. Well, thank you so much. I'd also like to 
congratulate you and thank you, Senator Specter. I'm fortunate 
that I was born young enough to have had an opportunity to work 
with you and to benefit from your leadership and your wisdom 
and guidance. In many ways, I consider you to be the conscience 
of the United States Senate, in so many ways. And we work--we 
look forward to working with Senator Casey on future issues to 
benefit the children of Philadelphia.
    Let me talk about what works. The Youth Violence Reduction 
Partnership and the Adolescent Violence Reduction Partnership, 
which targets even younger children, it works and needs to be 
brought to scale. There is absolute--the data is there; it 
supports it. And, as pointed out, it's extraordinarily cost-
effective.
    School-based community policing is the most effective 
program at the local school level for reducing violence in and 
around the schools. But we've seen about a 20- close to 28-
percent reduction in serious incidents on and in our schools 
because of our community-based policing initiative.
    The Parent Truant Officer Program is the most effective 
program for getting kids off the street. Where we've had parent 
truant officers present, working in the schools, we've had an 
increase in enrollment, an increase in attendance, we've had an 
increase in test scores. And we're currently working with the 
city to try to bring that program to scale.
    The biggest problem we face, youth violence has a direct 
connection with the dropout problem. I think close to 80 
percent of the homicides are either--are committed by 
individuals who have, in fact, dropped out. We just recently 
provided data to the city and to Councilman Goode on this 
particular problem. So, if we get kids in school, and we keep 
them in school, crime's going to decline. All you need to do is 
to visit the jails and to look at the jackets of those who have 
been incarcerated to see that education failure seems to be 
followed by crime.
    The three highest dropout rates are among students who are 
incarcerated or put in detention centers or put in AUDI homes, 
or your disciplinary homes; students who are pregnant 
constitute the second highest percentage of dropouts, 70 
percent; and students who are overaged underachievers. And, as 
you know, we have this wonderful law in Philadelphia that says 
you don't have to start school until you're 8 years old, and--
which means a lot of parents take that literally, and it's not 
like the kids have been home-schooled. So, obviously, 
initiatives that target those three categories will have an 
immediate impact.
    Alternative schools for students who are incarcerated allow 
us to reach those kids, and to give those kids a second chance. 
Where we have our alternative schools, they're working very 
effectively, in terms of attendance, in terms of giving 
students an opportunity to get back into school, get back into 
the mainstream. A program called the Cradle to the Classroom 
Program, which identifies pregnant teens and assigns pregnant 
teens a mentor and a trainer to make sure babies are born 
healthy and put in daycare, and mentors the pregnant teens to 
get them back into school, has been phenomenally successful. 
Pregnant teens who have been through this program are four 
times more likely to graduate, and their children, by the time 
they reach third grade, you don't see an achievement gap. And, 
in transitional schools for overaged underachieves, so we can 
get those 14- and 15- and sometimes 16-year-old middle-grade 
kids out of the middle schools, believe it or not, and into the 
transition--into transition schools, because that constitutes 
our--the highest--the third highest percentage of dropouts, the 
third highest category of dropouts, in terms of percentages.
    I think, overall, though, if we're going to keep kids in 
school, I believe that we have to change the dynamic and the 
expectations. Time magazine's recent piece, special edition 
called ``Dropout Nation,'' looked at the dropout problem 
nationwide, talked about the direct links between dropouts and 
crime, and said that there are two principal reasons why people 
drop out. The children do not see college as an option, because 
they come from families who have never had anyone attending 
college, or--and/or children to not see college as a financial 
option, they believe that college is financially beyond their 
reach. So, as a result, there's no interest to really focus on 
high school, to do well in high school, to succeed in high 
school. And, likewise, that contributes to underachievement at 
the middle grade levels, because, again, it's--the high school 
is kind of seen as a dead end, and high school is not seen as a 
vehicle for achieving something else.
    And obviously, counseling and mentoring can help change 
that dynamic, but ultimately we need to make a stronger 
connection between college, and we need to make a stronger 
connection--and we need to guarantee children that, if they get 
through high school, college is, indeed, an option.
    So, what we've begun to look at in Philadelphia is linking 
college--linking high school to college through programs like 
dual enrollment, through programs like early college. We're 
piloting a number of programs right now with some of our 
poorest-performing schools, that, in effect, guarantee high 
school seniors that, their senior year, they will be enrolled 
in college, taking dual courses; in some cases--at Northeast 
High School, about 100 kids are actually taking almost a full 
freshman load, and it's having a dramatic impact. We have 
children from Germantown attending such a program.
    And then, secondly, guaranteeing children employment 
opportunities before they graduate high school, as an incentive 
to keep them in high school, particularly work-study. It's 
great to do counseling, but when you incorporate counseling 
into work-study, it can have a dramatic impact, too. So, what 
we're piloting in Philadelphia is a program that allows 
students to go to school and to work at the same time, and to 
earn elective credits through work-study programs. I cite, just 
to close, the Cristo Rey model in Chicago that has gotten some 
national attention, where the children are actually going to 
school 4 days a week, and working 1 to 2 days a week. And, 
obviously, they use that income to help pay for their high 
school tuition at one of Chicago's more prestigious parochial 
schools. But it's a 99-percent-poverty school, and yet they 
have a 95-percent dropout rate. So, changing the dynamics and 
changing expectations, we think, can go a long way.
    Thank you.
    [The prepared statement of Mr. Vallas appears as a 
submission for the record.]
    Senator Specter. Mr. Vallas, we now turn to the questions 
from Senator Casey and myself. Let begin with you. On the 
subject you just talked about, the dropouts, what assistance 
could the Federal or State or city governments be to formalize 
programs where the colleges would work with, say, the 
Philadelphia school system to provide the incentives to high 
school seniors to finish school or, as you characterize it, the 
work-study program, to work with employers to mesh with the 
high school seniors?
    Mr. Vallas. Well, let me say that----
    Senator Specter. Let me start with a question. Are there 
any formalized programs now in either of those two directions?
    Mr. Vallas. The State has been slowly bringing to scale a 
dual-enrollment subsidy program that gives schools----
    Senator Specter. That gets the subsidy----
    Mr. Vallas [continuing]. Partial----
    Senator Specter [continuing]. For whom?
    Mr. Vallas. For dual enrollment. For the high schools 
themselves. So, in other words, if students are enrolled in 
college courses while they're in high school, the State----
    Senator Specter. How do we--how do we motivate the college? 
It seems to me that's the motivation line.
    Mr. Vallas. Well, one of the ways you can motivate them 
is--obviously, schools that are receiving State and--State and 
Federal subsidies should--could be encouraged to set aside a 
number of slots for dual enrollment. Let me give you an 
example. In the Philadelphia metropolitan area, there are more 
degreed--students in degreed programs than there--college 
programs--than there are kids in the Philadelphia public 
schools. There's something like 236,000. So, if all the 
universities, colleges, and institutions would set aside, 
maybe, 2 percent of their seats for an early college program at 
reduced tuition costs, tuition costs that are aligned with what 
we, in effect, pay to educate that senior if that senior was, 
in effect, taking the same courses that----
    Senator Specter. Superintendent Vallas let me interrupt----
    Mr. Vallas [continuing]. Could have an impact.
    Senator Specter [continuing]. You, because the time----
    Mr. Vallas. Yes.
    Senator Specter [continuing]. Time is short. I'd ask you to 
supplement your oral testimony----
    Mr. Vallas. Absolutely.
    Senator Specter [continuing]. Here today, and respond to a 
series of questions.
    One, what specific programs, perhaps by way of tax credit 
or tax incentives, might the Federal Government utilize to get 
employers to tie in to high school seniors?
    And, similarly, what kind of incentives might be provided 
to universities to tie in?
    And, third, a subject we can't go into any detail, but 
something you and I have discussed at some length, and that is 
the number of at-risk students you have where you know who they 
are----
    Mr. Vallas. Uh-huh.
    Senator Specter [continuing]. And you probably have the 
most intimate contact with them, on a variety of indicia, 
dropping out----
    Mr. Vallas. Yes.
    Senator Specter [continuing]. Attitudes in schools. And 
what kind of a program within the school, directed solely 
there, would be useful?
    Mr. Vallas. Okay.
    Senator Specter. As you know, we've been successful in 
getting very substantial additional sums to the Philadelphia--
--
    Mr. Vallas. Yes, you have.
    Senator Specter [continuing]. School district through the 
appropriations process. And Senator Casey and I would be 
interested to see if we could target that.
    Director Ramos, let me turn to you on a question of whether 
we might look for some targeted funding outside of the regular 
channels. We know the shortages of discretionary spending at 
the Federal level, and the squeeze at the State level and the 
city budget. Private parties have undertaken to finance a 
cleanup of the Center City area, because it is in their 
financial interest to do so, with the funds coming from local 
merchants. What might be explored to try to get voluntary help, 
maybe from foundations or from citizens, to a fund which would 
be directed solely at the programs we've talked about here, the 
Youth Violence Reduction Program, they mentoring issue, with an 
appeal which could be jointly framed from the Governor, the 
mayor, Senator Casey and myself, and others? What do you think 
of the possibilities of creating such a fund?
    Mr. Ramos. Senator, I'm sure that the mayor and the 
administration would want to pursue that jointly with you, and 
this--and representatives of the State. We have--at least with 
respect to Youth Violence Reduction partnership--we're, as 
you've heard, in four areas, in five districts--one of the 
things that perhaps makes that a more achievable goal is--we 
don't think we need a YVRP in each police district. We believe 
that going to scale with YVRP is probably going into a total of 
about nine school districts--about nine police districts, at a 
cost of about 1.6----
    Senator Specter. And what would that cost?
    Mr. Ramos [continuing]. About $1.6 million per district. 
With respect to AVRP, we have been funding----
    Senator Specter. So, we're talking about nine times 1.6, or 
about $14 million.
    Mr. Ramos. Of--in the aggregate, including those areas that 
are currently funded through Federal earmark, as well as State 
grants.
    On the YVR--on the AVRP program for children 10 to 15, 
we've been funding it primarily from Department of Public 
Welfare, and are funded at--not funded to have the program at 
scale, although we've been taking the program----
    Senator Specter. Director Ramos----
    Mr. Ramos [continuing]. To scale----
    Senator Specter [continuing]. How does the program work, 
where private parties contribute to a fund to keep the streets 
clean in the Center City area?
    Mr. Ramos. Well, in that particular example, there's, by 
local legislation, a special services district created that 
assesses the Center City businesses and funds those special 
services. There are other models that--where the business 
community, in the past, for example, around public education, 
has come together and contributed to a charitable fund 
controlled by the business community. So, there are a number of 
different models out there.
    Senator Specter. They've joined together to control--create 
a fund.
    Mr. Ramos. And I guess one final thing, Senator, that I 
would point out, in fairness to the--to all the nonprofit 
social-service organizations in this city, is that a lot of the 
front-line service in both YVRP and AVRP, in this--particularly 
streetworkers, slash, mentors--are done by people employed by 
community-based nonprofit organizations, who themselves are 
charitable organizations, and at--to some extent, are probably 
subsidizing some of this, because it's----
    Senator Specter. Director Ramos----
    Mr. Ramos [continuing]. A core mission for them.
    Senator Specter. I would like you to follow up your 
testimony today and give some thought to whether we might 
create a voluntary fund. Keeping the streets safe is really a 
higher priority than keeping the streets clean. We like to have 
clean streets, but I think we'd like better to have safe 
streets.
    U.S. Attorney Meehan, you have gotten an allocation of $2.5 
million for the Route 222 Project. Tell us what good use you've 
made it to give us an incentive to provide some more Federal 
funding for you there.
    Mr. Meehan. Senator, that has had--that has had three 
components to it. There's been a law enforcement component, but 
there has also been critical involvement in two other aspects. 
First, the prevention. We've worked with mayors from five 
cities to identify how they can utilize this money, frankly, 
just to serve as a steppingstone to identifying their at-risk 
youth, and then seeing what they have in their community that 
can be supplemented to intervene with the at-risk youth before 
they embark on a life of crime. You've seen almost every person 
here discuss the idea that we can identify those kids that are 
the most likely to carry out the criminal activity. What we try 
to do is work with the resources that exist in that community, 
supplement them, and then make a match between those at-risk 
kids and the community-based organizations.
    Senator Specter. Has the program----
    Mr. Meehan. A second----
    Senator Specter [continuing]. Been going on long enough to 
show any tangible results?
    Mr. Meehan. No. We have only begun these processes. We've--
as is often the case, it's the law enforcement piece which is 
out in front. We've had some very big takedowns of the gangs. 
And I might focus on the fact that we're looking at kids who 
may be identifying with gangs. So, the focus is exclusively on 
preventing gang identification in the neighborhoods and in the 
schools. Many of the kids who are carrying out the violence may 
not, all the time, be gang-associated. So, what we're talking 
about today is a little bit apart.
    I want to focus, as well, on the aftercare piece. This is--
we have a piece, that talks about individuals who are returning 
from incarceration, which is part of our aftercare. But it's 
just as significant in the juvenile context particularly maybe 
even more significant, which is why I talked about the Glen 
Mills program. While it's not something that has been broadly 
followed around the area, I think it has tremendous promise, 
because we spend a lot of time already on kids that are at 
risk, who have been sent to juvenile facilities, then they 
return to their communities, already having had some benefit of 
stabilization while they've been in that facility, but they 
return to the streets, and they're left without the kind of 
continuing guidance and oversight that may help them return 
more effectively back to the school-based situation or----
    Senator Specter. Well, what's your suggestion?
    Mr. Meehan [continuing]. Even----
    The funding for programs, like the Glen Mills program, that 
recognize that, after we have people in our juvenile 
facilities, much as Paul Vallas had said, we want to take 
advantage of that to return them, first, to school, if 
possible, in an age-appropriate way, or with--to some sense of 
involvement in----
    Senator Specter. Mr. Meehan----
    Mr. Meehan [continuing]. Employment or a community----
    Senator Specter [continuing]. Because of the shortage of 
time, would you supplement your answer by giving us a short 
memo on the Glen Mills project----
    Mr. Meehan. Yes, I will, Senator.
    Senator Specter [continuing]. How it works and why you 
think it's been successful?
    Mr. Meehan. Yes, Senator.
    Senator Specter. Dr. Zahorchak, the law of the State of 
Pennsylvania doesn't require a child to attend school until 8. 
That seems like an archaic provision, especially with all of 
the modern studies which have shown that the earlier years are 
more determinative on development. What efforts have been made 
to change that law?
    Mr. Zahorchak. Well, we've--on a couple of occasions, have 
asked the legislature to change the law. In our school code 
bill, we've asked to make it at least age 6. We've been 
unsuccessful at doing that, so we, you know, need to get the 
support from----
    Senator Specter. What's the problem in getting it changed?
    Mr. Zahorchak. It seems that there's support for not 
mandating from the State a choice that a parent would make. We 
don't believe that. We believe that it's a good idea to make an 
earlier start as part of----
    Senator Specter. Is there an objection from the rural part 
of the State, where they might have a little different 
circumstance than the city considerations?
    Mr. Zahorchak. There could be. There is objections, where--
--
    Senator Specter. Have you tried the--leaving it to local 
option?
    Mr. Zahorchak. Well, today we've not introduced anything 
that would say compulsory education would be a local choice to 
start it before 8. Policies could be made. We have not done 
that. We've tried to make a sweeping rule, changed from 6 to 8. 
We----
    Senator Specter. Well, it seems to me that that's a pretty 
glaring problem, not----
    Mr. Zahorchak. It's----
    Senator Specter [continuing]. To have that requirement in 
the city of Philadelphia.
    Commissioner Johnson, what age would you like to see 
children required to go to school?
    Commissioner Johnson. Well, you know, as far as I'm 
concerned, this is--going by the experts, and these are two 
experts here, as far as education is concerned, and I'm not----
    Senator Specter. Well, come on, Commissioner Johnson, you 
take 'em off the street, out of your bailiwick and give 'em to 
Superintendent Vallas. What age?
    Commissioner Johnson. Okay. I think that 6 or 7 would be 
the appropriate age to take the--
    Senator Specter. How about--6 or 7, that's too vague--how 
about 5?
    Commissioner Johnson. Six, Senator.
    [Laughter.]
    Senator Specter. Well, we've made a little progress.
    [Laughter.]
    Commissioner Johnson. Okay.
    Senator Specter. Commissioner Johnson, I note what you have 
done with the Mifflin School on one of your assignments earlier 
in your career. Do you think it realistic to do a little more 
than encourage police officers to participate in this mentoring 
program, but to give them some incentives to do so?
    Commissioner Johnson. Well, what I did, growing up in North 
Philadelphia--and I rank the--the rank of a captain, I felt as 
though I wanted to give something back, and I called the school 
district, and I tried to find a school that had more problems 
than any other school in the city. They picked Mifflin School, 
because, I guess, at that point, approximately 75 percent of 
the kids were from the Epperford projects, the Epperford 
development. I asked our officers to volunteer to go into the 
different classrooms. And I met with the principals and the 
teachers first. And our thing that was that we're not going 
there as security officers, we're going there as mentors and 
tutors. The only qualification was that if a police officer 
qualified or volunteered to go, he or she had to stay the full 
year, because I thought that would be really bad if they go in 
there and then dropped out. We went there, and we would assign 
a police officer to every single classroom in the school. And 
as that person, say, for example, went through the first grade, 
when they went to the second grade, that also went with them, 
all the way up until the time they graduated. The discipline 
went down, the attendance went up. Not only did we go to the 
schools, but we took 'em different places. We took them to the 
college. We even took 'em to Disney World. We took them all 
over to places.
    Senator Specter. Commissioner Johnson, there's no doubt 
that it would be helpful, and especially police officers who 
have a pervasive idea as to how young people get into trouble. 
What I would like you to do--and I would like the same thing 
for Director Ramos and Dr. Zahorchak--really, everybody on the 
panel--to consider where we might get more mentors from our own 
offices as starting points. I would be willing to do that in my 
office, to give some incentives or some time off, if we could 
find some way. We are going to be putting this question, 
really, more to the second panel, because they're--have 
practical experience in the field with the mentoring programs. 
But I think, with the support of the Governor and the mayor, 
you have the large pool of employees available. Pat Meehan and 
Arlen Specter have some. The DA's office has some. The 
Department of Education could, but their efforts would be best 
used within the identification of at-risk youth. But I'd like 
you to think about it. My staff's going to be following up with 
you to see if there's some way we can find people within 
government to undertake this mentoring.
    Mr. Delaney----
    Commissioner Johnson. Well, I----
    Senator Specter. Did you want to say something further, 
Commissioner?
    Commissioner Johnson. Yes, sir.
    I have all the commanders right now--approximately 30 
commanders--we go to the different schools every single week. 
And I think, especially for the Afro-American police officers, 
they have an obligation to give back and go back to the 
neighborhoods and the schools that they grew up in. There's 
approximately 2,400 Afro-Americans in the city, and I've been 
talking to the organization--talking to the City League, 
without getting paid to go back. I think they have an 
obligation to go back. And I've been meeting with them, and 
will continue to meet with them, to go back to our schools and 
go back to our neighborhoods. We have an obligation to do that, 
and we're starting to do that.
    Senator Specter. Well, thank you very much for what you're 
doing there, Commissioner. And it's a good model for expansion.
    Mr. Delaney, you've put your finger on a critical spot, 18- 
to 24-year olds. My recollection, as DA, is that that's where 
we had the violence, the armed robberies, the homicides. But 
how do you deal with that category? You're talking about 
mentoring, which seems to apply more to more impressionable age 
groups. Can you mentor someone in the 18- to 24-year-old 
category, or do you really need a parole officer or a probation 
officer with the kind of experience and toughness that that 
kind of a position would entail?
    Mr. Delaney. Senator, I believe you need both. If--the way 
we've described YVRP to people who have never heard of it is, 
it's the stereotypical mother and father, it's the 
stereotypical disciplinary father and the stereotypical 
nurturing mother. And the police and probation provide the 
discipline/supervision side. The streetworker supplies the 
nurturing side. And there are a lot of obstacles to getting 
somebody who's 18 or 19 or 20, who's dropped out of school, who 
doesn't know how to read well or write well, to go to a job 
interview, because he's not sold on the fact that that job 
interview is going to lead to something productive, the way all 
of us were raised, and the way all of us have raised our 
children. So, it's a struggle to get at-risk young people to 
participate in the pro-social activities of everyday life that 
we all take for granted.
    So, that's why YVRP, I believe, had shown success, because 
it couples the intensive supervision with the intensive 
support.
    Senator Specter. Does YVRP deal with 18- to 24-year-olds?
    Mr. Delaney. About 75 percent of our youth partners are 18 
to 24.
    Senator Specter. Well, is that the age group which is 
providing guidance to younger people, or is that the age group 
to which guidance is provided?
    Mr. Delaney. The latter. It's the age group--they are our 
youth partners. They're the subjects, the targets, if you will, 
of YVRP. So that----
    Senator Specter. So, you are, in effect, mentoring people 
in the 18- to 24-year-old category?
    Mr. Delaney. Yes, Senator.
    Senator Specter. And, again, who are the mentors?
    Mr. Delaney. Streetworkers, people employed by the 
Philadelphia Antidrug/Antiviolence Network, what we know in 
Philadelphia as PAAN, P-A-A-N, who are, by and large, older 
people in their 20s, 30s, and 40s, who come from the same 
communities as the youth partners now live in.
    Senator Specter. And how much does that program have to be 
expanded? And what would be the cost?
    Mr. Delaney. We're in five police districts now. There are 
at least five more that we would expand to. So, the total would 
be nine or ten, at a cost of $1.6 million a year. I liked your 
earlier figure, 14 million a year.
    Senator Specter. Okay. Well, Senator Casey and I have 
something to shoot for.
    That leads me to you, Senator Casey.
    Senator Casey. Well, thank you very much. I want to thank 
Senator Specter again for bringing us together.
    And I should note for the record that, because of Senator 
Specter's convening of this panel today, and this hearing, 
that, by virtue of that, he made me a member of both the 
Appropriations Committee and the Judiciary Committee for one 
brief shining moment. So----
    [Laughter.]
    Senator Specter. It's more than Senator Harry Reid, the 
Majority Leader, has done for you.
    [Laughter.]
    Senator Casey. That's true. That's true. I'll talk to him 
about that when I get back.
    [Laughter.]
    Senator Casey. But I had a couple of broader questions. But 
first, to Mr. Delaney, and to all the panelists, we appreciate 
your testimony and the expertise and the dedicated public 
service you bring to these issues.
    Mr. Delaney, you talked about the elements of YVRP and 
the--as others did--but I want to make sure I understand. When 
you talk about a father-and-mother model--in other words, as 
you've--you phrase it as the stereotypical father and mother--
and they're, obviously, broad generalizations there--but in the 
YVRP model, the parole officer, in effect, becomes the tough 
disciplinarian. Is that the right role?
    Mr. Delaney. Yes, Senator.
    Senator Casey. Okay. And then, the more nurturing role is 
played by the streetworker, is that correct?
    Mr. Delaney. Yes.
    Senator Casey. Okay. And that streetworker is about the 
same age, usually, or within a range of 18 to 24, a little 
older, maybe?
    Mr. Delaney. Usually older. These are people that have come 
from the same neighborhoods that the youth partners now live 
in, who have established a pro-social track record, who want to 
give back to their community. So, most of the streetworkers are 
in their later 20s or 30s--some, older.
    Senator Casey. Okay. Now, one thing I heard from virtually 
everyone here--and I think United States Attorney Pat Meehan 
said it first. He talked about comprehensive intervention. 
Others talked about intensive intervention. And it seems like 
all three of those words are important. It has to be 
comprehensive, which I hope others in Washington hear. I 
remember, last year, when some of the budget cuts were 
announced, Senator Specter, rare and--and I don't want to get 
into parties here, but I will for one moment--said that those 
cuts were--I'm--think I'm quoting him accurately--
"scandalous,'' health and education cuts. So, there were a lot 
of people in Washington and some State capitals around the 
country--not this State capital, but other States--who really 
believe the little eyedropper here and there of money can solve 
problems. They don't want to put the money up, because they're 
more interested in tax cuts and pleasing the wealthy. But I 
think those three words are critically important: 
``comprehensive,'' which means dollars and commitment; and guts 
to fund it; ``intensive,'' that it has to have a focus when it 
comes to intervention.
    So, my question for all of you--and chime in one at a time, 
if you can; I know we have limited time here--is, other than 
YVRP--we know that works, we know a number of these other 
programs work well--other than that program, if you had a--an 
opportunity to directly impact the kind of dollars that the 
Federal budget puts aside for programs like this, based upon 
your experience, based upon your knowledge of these programs, 
what are the other programs that you would fund either 
significantly or if you could fund them to scale? YVRP, a good 
example. What about--and if you could make a quick list.
    Mr. Vallas. Yeah. Well, very quickly, let me just make a 
brief comment. YVRP and AVRP and those programs, even the 
Parent Truant Officer Program or the School-Based Community 
Police Program, they're interventions, and they're 
interventions a lot of times that deal with kids who have--I 
don't want to say ``have been lost,'' but it's difficult for 
those kids to recover, because once the kids reach the age of 
18 to 24, I mean, you've--you're not--YVRP is not going to 
solve the problem. I think they're the most--I think they're 
the best immediate interventions that can be--that can be 
deployed to bring crime down. But we need to look longer-term, 
in terms of the type of things that we need to implement and be 
brought to scale.
    Let me be very specific on specific programs. First of all, 
the investment in early childhood education, particularly in 
the 0-to-3, Cradle to the Classroom Program, absolutely 
critical. The biggest problem we have is inexperienced parents, 
parents who just do not know how to raise their children. It's 
as simple as that. And we've got to train the next generation 
of parents. I mean, there's, you know, a--how do parents--how 
do we learn how to be parents? We learn from our parents. And 
somewhere along the line, that chain in that--that link in 
the--in that long chain was broke. And once you have one weak 
link, the entire chain is useless.
    So, bringing programs to scale, like Cradle to the 
Classroom, so that we can begin to train parents on proper 
childrearing and proper support, and to get those first-time 
parents into high school, and to get them a high school 
diploma, is absolutely critical. And those programs are not 
cost-prohibitive. Those programs are extraordinarily efficient. 
Our--to put one child through a Cradle Program costs anywhere 
from $2,000 to $2,500. It's extraordinarily effective.
    Second is transition programs. And transition programs to 
target middle grades--middle-aged kids. You know, we can tell 
you, at sixth grade, who's going to drop out. And actually, I 
think we can tell you, at third grade, who's going to drop out. 
But by sixth grade, with almost--unbelievable certainty, we can 
tell you who's dropping out and who's not dropping out. Being 
able to get the overaged underachievers into transition 
programs, transition classrooms, transition schools is 
absolutely critical. Where we've done this, and where we've 
piloted this, we've had dramatic effect. Bringing those things 
to scale--and that does not necessarily mean that you've got to 
invest a substantial amount of money, because if the money 
follows the kids--if the money follows the kids, technically, 
you know, that's spending the money effectively. But it's the 
gap funding that we need, because the difference between 
putting a child in a transition school as opposed to keeping 
them in a regular school is about $3,000 to $4,000 a kid.
    And then, the final thing is, I can't stress enough, 
programs that expand dual enrollment, early college, programs 
that create work-study. If I can tell a sixth-grader, if they 
go to high school, by their senior year, they're actually going 
to be enrolled in college while they're still going to high 
school, and that there's going to be a work-study job for them 
at the end of their junior year, you'll see the graduation 
rates skyrocket. So, bringing those type of initiatives to 
scale--and they're not cost-prohibitive, because if the money 
is following the kids, you can substitute some of the savings 
from having kids out of the high school in a college 
university, or in a----
    Senator Casey. I want to----
    Mr. Vallas [continuing]. Work-study program.
    Senator Casey. Paul, thank you. I just want to go to----
    Mr. Vallas. Thank you.
    Senator Casey [continuing]. To others in the rest of the 
panel, because I know we're--we're over by 2 minutes now.
    Mr. Delaney. Senator, thank you for your question.
    I want to identify something which everybody keeps talking 
about, ``at-risk youth.'' And there has been great work done 
under the Communities That Care model to look at risk factors. 
Paul had identified that we can see ahead of time, often ahead 
of time, who are at the greater risk. And there was a great op-
ed piece this weekend in the Inquirer by Dr. Bill Schwab from 
University of Pennsylvania. He's a surgeon that deals in the 
trauma centers. But he talks about looking at this in the same 
way we deal with the healthcare issue, where we identify the 
greatest risk for heart disease, and then you look to 
preventions for the kinds of things you can do to prevent that 
from happening. We're not doing it with violence in the way 
that we can, by identifying those most at risk. There are many 
great programs, many of which have been identified, once we do 
that. And I think using that model will be effective.
    I have one other observation, though, that I think is 
significant, that's often missed. We also have a tremendous 
moving target when we're discussing the at-risk youth, because 
there's remarkable transience, not just from school to school 
within a district, or neighborhood to neighborhood, but really 
from city to city. And the problem is exacerbated when the kids 
keep moving to different areas, and then leave the protection 
of the programs that we've got in place for them.
    Senator Specter. Would the concluding answerers try to be a 
little briefer?
    Mr. Zahorchak. Will do. Eighty-two percent of the people 
who are incarcerated are high school dropouts. It begins, I 
think, as Paul said, by the end of the third grade. But by the 
end of age 3, 30 million less word utterances to a child in 
poverty. What can we do? We have the Nurse-Parent Partnership 
that should be on that list. The Pre-K Counts and--the 
supplementing the Head Start Program that the Governor is doing 
to bring students to school as 3- and 4-year-olds are really 
vital. And then, of course, the interventions, like, in 
Pennsylvania, our alternative education programs, our student 
assistance program, tutoring, mentoring, the 21st century for--
places for kids who are at risk to be after school hours with 
mentoring built into those places, all should be on the list.
    Mr. Ramos. I think most of the programs we've spoken about 
today are, as you noted, Senator, short-term-oriented, they're 
intervention. And they are, sort of, trying to intervene where 
many failures have happened before. And we've--and the 
additional YVRP and AVRP and other programs you've heard 
about--other--one thing we haven't spoken about that's--I would 
put in that short-term category is dealing with the issue of 
reentry. We also know that violence also relates very heavily--
correlates very heavily with recidivism among people who have 
been in the criminal justice system, have been incarcerated at 
some point before.
    On a more long-term basis, in--can't--it certainly can't be 
overstated--the value of strengthening the educational system, 
particularly at the pre-K level, but also noting, in addition 
to education funding and Head Start funding, the consequences 
of some of the other trends, including cuts in welfare funding 
and housing. While those don't impact us as instantaneously as 
some of these other failures, they certainly make their way 
down the pipeline, and they come back to bite us.
    Senator Specter. Mr. Johnson, do you care to respond?
    Commissioner Johnson. Well, the only thing I think from my 
personal point of view, I think if a child, even though he's 
neither--he's at risk if he's born into a single-parent home. 
He's at risk if he's born to a parent who's addicted to drugs. 
He's at risk if he's born into poverty. So, even from the very 
beginning of his life, if he's born into poverty if he's born 
to a single parent, he's born to parents who are addicted, 
they're at risk before they even come to the criminal justice 
system. We have to deal with--something to deal with those 
kids.
    Senator Specter. Mr. Delaney?
    Mr. Delaney. I would just add two things, Senator. One is 
the recognition that the criminal justice system is a system. 
Granting more funds for more police officers would add 
additional people to prosecute or defend or supervise them is a 
failure.
    Finally, I would add that we can't give up on people who, 
once they offend, are still in our communities. We spend a lot 
of money and a lot of resources on people in incarceration, as 
it should be, but we pay very little attention to offenders who 
remain in our community who need both support and supervision.
    Senator Specter. Well, thank you all very much. I would 
like you to supplement your responses, in addition to the 
issues already covered, with a projection as to how many at-
risk youth there are in our city, and what additional mentors 
we need. And that fits in with the request as to whether you 
would press your own organizations to provide some additional 
mentoring.
    Well, thank you very much.
    We now turn to our second panel, Ms. Carroll, Ms. 
McClanahan, Mr. Pennington, Mr. Fair, and Mr. Harkavy.
    [Pause.]
    Senator Specter. We now turn to our second panel. Thank you 
for joining us. And we will focus now with experts in the field 
of handling at-risk youth, delinquency problems, and the 
mentoring issue.
    And we turn, as our first witness, to Ms. Jennifer Carroll, 
the director of the Match Support Program of Big Brothers Big 
Sisters of America, Southeastern Pennsylvania. Prior to joining 
this organization, she worked with special-needs children in a 
number of capacities. The Big Brothers Big Sisters program has 
worked with some 70,000 youths with some 500 agencies across 
the country, and has found that, with 18 months of mentoring, 
participants are 56 percent less likely to skip school, and 46 
percent less likely to initiate drug use.
    Thank you for joining us, Ms. Carroll, and we look forward 
to your testimony.

  STATEMENT OF JENNIFER CARROLL, DIRECTOR, MATCH SUPPORT, BIG 
   BROTHERS BIG SISTERS OF AMERICA, SOUTHEASTERN PENNSYLVANIA

    Ms. Carroll. Thank you, Senator, for inviting us to testify 
today and for bringing attention to the challenges facing the 
youth in our city.
    I would also like to thank the Senator for his long and 
strong support with mentoring, and acknowledge the work of his 
Appropriations Subcommittee in funding critical national 
mentoring initiatives.
    Big Brothers Big Sisters makes and supports one-to-one 
relationships between at-risk children and volunteer mentors. 
And we know about the power that these friends and role models 
have in young lives.
    In 2006, we served 2,900 children, the vast majority of 
them from Philadelphia. Our near-term goal is to serve 5,000 
children annually, because we know that the need in this 
community is great. In fact, we have more than 1,300 children 
on the waiting list, the vast majority of them young boys 
living here in Philadelphia. In a city where 180,000 children 
ages 14 and over had eight or more absences last year, where 
half of ninth-graders don't graduate on time, and where the 
number of murders involving young males continues to skyrocket, 
it is clear we need to do more to support the youth in our 
community, and mentoring is one approach that helps.
    Other panelists today can emphasize the research 
documenting the positive impacts of mentoring. What I want to 
emphasize are the steps that we take to make it work.
    Since the beginning of Big Brothers Big Sisters over a 
century ago, our organization has focused on at-risk youth, 
usually children from single-parent families growing up in 
depressed economic situations. Today we also have programs that 
focus on children who are already demonstrating patterns of 
delinquency or truancy, or who are already beginning to engage 
in violence.
    Our Amachi mentoring program specifically targets children 
who have parents in prison. We serve children ages 6 to 18, 
though our strong preference is to match children before the 
age of 13.
    Based on census estimates of the number of children living 
at or below poverty level, we estimate there are over 80,000 
children in Philadelphia who are at risk because of factors 
such as poverty, poor education, or challenging family 
circumstances. So, as we've grown over the years, more than 
doubling the number of children we serve annually since 2002, 
we've had to spend more time recruiting mentors for our 
programs.
    We know we need to match more of the children on our 
waiting list. We're working to highlight the need and value of 
mentoring so that more men step up. We're working to counter 
the image that a person has to be a saint or a CEO in order to 
be a good mentor by emphasizing that everyone has experiences, 
insights, and interests that are valuable for children. In 
fact, we're currently working on campaigns to emphasize the 
``average Joe'' has much to offer children. We're not looking 
for perfection, we're looking for good people who are willing 
to commit to spending time with a child.
    We know that the way to build strong, safe, and impactful 
relationships is through careful screening of mentors and 
through professional support after the match is made. Asking 
our volunteers to commit to meeting their Little Brother or 
Little Sister two to four times a month for a period of a year 
is important. The total volunteer time our mentors spend with 
children in the program, roughly 144,000 hours a year, is 
impressive and a testimony to the volunteer spirit. And 63 
percent of our nearly 2,100 open matches have lasted more than 
12 months.
    In Philadelphia, we've benefited from our relationships 
with the city and school district. We would not be able to 
serve the thousands of children we do each year without their 
support. The challenges we face--a need for more African-
American male mentors, unpredictable funding streams, 
increasing demands for documentation, an overlap of databases 
and reporting for different funders--are challenges faced by 
nonprofits and Big Brother Big Sister programs everywhere. But 
in a city where millions are spent on incarceration, surely we 
can find the financial and political will to ensure the 
children over--the future of our children.
    The reality is that mentoring is a cost-effective 
intervention. The cost of making and professionally supporting 
a one-to-one relationship for a year is a mere fraction of the 
cost of juvenile incarceration.
    Finally, we know that there is still enormous untapped 
potential in our community. Just last week, one of our local 
newspaper columnists did a story on 13-year-old Nasheed, who 
was just matched with his Big Brother. Nasheed has been on our 
waiting list since he was 8 years old. As a result of that 
story, we've had a noticeable increase in the number of males 
inquiring about becoming a Big Brother.
    In the end, it's simple. Mentoring is not a cure for the 
challenges facing the city, but it clearly belongs as part of a 
multipronged approach. Our children need mentors, and engaging 
this community in the lives of our children is imperative.
    On behalf of Big Brothers Big Sisters Southeastern 
Pennsylvania, thank you for the opportunity to present 
testimony.
    [The prepared statement of Ms. Carroll appears as a 
submission for the record.]
    Senator Specter. Thank you very much, Ms. Carroll. I 
inadvertently was looking for Ms. McClanahan as the first 
witness, but thank you.
    Ms. Carroll. You're welcome.
    Senator Specter. We do now turn to Ms. Wendy McClanahan, 
vice president for the Research of Public/Private Ventures, 
which analyzes the effectiveness of the youth programs.
    Ms. McClanahan holds an MS in human development and is 
currently working on her Ph.D. at the University of 
Pennsylvania. We look forward to your testimony.

  STATEMENT OF WENDY MCCLANAHAN, VICE PRESIDENT FOR RESEARCH, 
                 PUBLIC/PRIVATE VENTURES (P/PV)

    Ms. McClanahan. Thank you. Thank you for the opportunity to 
speak before you today.
    Public/Private Ventures' mission is to improve the 
effectiveness of social policies, programs, and community 
initiatives, especially as they affect youth and young adults. 
We do this by identifying or developing promising approaches to 
critical social problems by rigorously evaluating these 
approaches and, when suitable, by replicating them in new 
communities.
    Like the other stakeholders, P/PV is deeply concerned about 
violent crime, which is on the rise in many of our Nation's 
cities. Homicides in urban areas have increased, and, in 
Philadelphia, homicide was up by 15 percent in 2005. 
Unfortunately, this increase looks like it might be the start 
of a trend.
    Many have expressed hope that mentoring can play a role in 
reducing violent crime. For more than 15 years, P/PV has been 
investigating the value of mentoring as a strategy to improve 
the lives of young people. In our pivotal report on Big 
Brothers Big Sisters program, titled ``Making a Difference,'' 
we presented evidence, persuasive evidence derived from a 
rigorous random assignment study that well-designed mentoring 
programs could measurably decrease negative behaviors and 
increase positive behaviors among young people.
    In a series of projects over the past decade, P/PV has 
extended its reach into mentoring programs in a variety of 
service environments, including its impact on crime and 
violence, and has added to the findings about mentoring's 
potential.
    For today's panel, I would characterize the findings from 
this work as follows:
    Mentoring offers real promise in reducing violence among 
children, youth, and young adults, but there are important 
qualifications that are essential to understanding both the 
value and the limitations of mentoring. Some of the positive 
findings are heartening. We saw a reduction in homicides 
through YVRP, decreased recidivism rates in an employment-
oriented program for ex-prisoners, called ``Ready4Work,'' lower 
incidents of depression among youth in a program for justice-
system-involved juveniles, called the National Faith-based 
Initiative,'' less violence behavior--violent behavior and 
substance abuse among youngsters in BBBS, and a significant 
reduction in child abuse and neglect and subsequent parental 
behavior of both mothers and their children in the Nurse-Family 
Partnerships.
    Findings such as these should rightfully inform decisions 
about national and local intervention policies and the role of 
mentoring, in particular. That is all to the good. However, the 
qualifications, significant ones, are far too often overlooked 
or minimized.
    I want to emphasize three qualifications, in particular, 
that we need to keep in mind based on P/PV's research. First, 
mentoring is not a cure-all social intervention or a magic 
bullet. Particularly for very high-risk populations, the 
criminally involved, and the young adults we're concerned with 
today, P/PV's research suggests that mentoring alone isn't an 
answer. These young people bring rough histories. Multiple 
supports and services in well-crafted program settings are 
essential to alter, even slightly, the trajectory of their 
lives. In the Ready4Work Program, for instance, mentoring did 
appear to contribute to improved outcomes, but there was also 
intensive case management, wraparound services, and job-
placement assistance, a dense web of support that gave the 
opportunity for these mentoring relationships to take root.
    Similarly, the mentoring that took place in the YVRP was 
accompanied by regular supervision from probation officers. And 
the mentors in this program were full-time employees, paid 
streetworkers. P/PV believes it was the overall service package 
that helped reduce the incidence of violent behavior.
    Second, just as there aren't free lunches, mentoring is not 
the cost-free social program it's often made out to be. The 
experience of BBBS makes it clear that the cost of goods, 
screening, training, and ongoing professional support are far 
from negligible. And in programs that use paid streetworkers or 
paid counselors, such as NFP and YVRP, the costs are even 
higher. But the need for strong supports is paramount. P/PV's 
work suggests that a solid support apparatus is crucial for 
mentors of high-risk adolescents and young adults. But these 
costs are likely far lower than the costs of long-term 
incarceration.
    Third, mentoring isn't easy, either as a programmatic task 
or a personal commitment. For programs, there is the continuing 
challenge of finding enough individuals prepared to dedicate 
the time and energy to building a relationship and matching 
them with the right mentee. When that mentee is a high-risk 
youth or a young adult returning from incarceration, finding 
suitable and willing volunteers, and keeping them, is a serious 
challenge. The Ready4Work Program, despite strenuous and 
sustained effort by staff, was able to match mentors with just 
over 50 percent of its participants.
    There are other challenges. For example, the ex-offender 
him-or herself may have no interest in having a mentor, or have 
other demands on his or her time.
    We also need to be mindful of the larger reality. With 
these high-risk populations, even our most striking statistical 
success is modest. Recidivism rates may be reduced, but still 
remain too high. Homicides and violent behavior are lessened, 
but by too little.
    But the successes are real and substantial, and our work to 
date has established that mentoring can contribute to 
measurable benefits in a variety of settings.
    On behalf of P/PV, thank you for the opportunity to speak.
    [The prepared statement of Ms. McClanahan appears as a 
submission for the record.]
    Senator Specter. Thank you, Ms. McClanahan.
    Our next witness is Mr. Michael Pennington, juvenile 
justice specialist for the Pennsylvania Commission on Crime and 
Delinquency, considerable experience in the issues involving 
delinquency, substances abuse, school dropout, teen pregnancy, 
and related programs.
    Thank you for coming in today, Mr. Pennington, to address 
the subject matter on a statewide basis.

  STATEMENT OF MIKE PENNINGTON, JUVENILE JUSTICE SPECIALIST, 
        PENNSYLVANIA COMMISSION ON CRIME AND DELINQUENCY

    Mr. Pennington. Thank you. Good morning, Senators. Thank 
you for the opportunity to be here today to talk about youth 
violence, which is a major concern for all of us.
    Although there are many factors that contribute to youth 
violence, I would like to focus my remarks today on prevention 
programs that are grounded in research and on quality aftercare 
and reentry services for youth leaving delinquency placements.
    The demand for prevention programs that have been proven 
effective in preventing adolescent problem behavior has never 
been grater. Historically, many of the resources committed to 
the prevention of youth violence, delinquency, and other 
problem behaviors have been invested in untested programs with 
little or no evaluation. Without quality, aftercare, and 
prevention, you will see more youth violence.
    Today, we are blessed with a substantial body of research 
that tells us what contributes to these behaviors and what can 
help us prevent them. The goal of our prevention funding is to 
support the implementation of programs that prevention 
scientists have evaluated and deemed effective at reducing 
problem behaviors. Some of these programs that we have funded, 
known as Blueprints for Violence Prevention Model Programs, 
include Big Brothers and Big Sisters mentoring programs, 
multisystemic therapy, functional family therapy, bullying 
prevention, and Promoting Alternative Thinking Strategies.
    I think it is critical that we continue to invest in 
proven, effective programs. For example, the Promoting 
Alternative Thinking Strategies Program, PATHS, is a program 
that promotes emotional and social competencies, and reducing 
aggression and behavioral problems in elementary-school-aged 
children, while enhancing the educational process in the 
classrooms. Evaluations have demonstrated significant 
improvements in the following areas: increased ability to 
tolerate frustration, improved self-control, and use of more 
effective conflict resolution strategies.
    One of the requirements of our funding is that applications 
be submitted on behalf of a local collaborative board. Based 
on--local collaborative boards, must conduct a risk and 
resource assessment that includes--identifies priorities--risk 
factors for problem behaviors. This will help local communities 
select evidence-based programs that would be most effective, 
and the development within a collaborative environment within 
their community to ensure that the prevention strategy is 
developed within a collaborative environment.
    Even though these are model programs, they will not result 
in significant improvements for children and families if they 
are not implemented the way each was designed and tested. It is 
critical that we provide strong and proactive technical 
assistance to local communities that receive our funding to 
ensure quality implementation. Technical assistance is also 
provided to develop an outcome assessment plan, as well as a 
plan for sustaining the program long term.
    It is important that we continue to work collaboratively 
across State agencies and with local community efforts so that 
our prevention efforts are well coordinated to best utilize and 
maximize our collective resources.
    There are some proven initiatives to build on in 
Pennsylvania. Communities That Care, which is now a critical 
tool as part of Federal SAMHSA's strategic prevention 
framework. CTC is a violence and delinquency prevention 
strategy, provides communities with a process to mobilize the 
community, identify risk and preventive factors, and develop a 
comprehensive prevention plan.
    Another major initiative in Pennsylvania is developing a 
comprehensive aftercare system by the year 2010. Stakeholders 
in the juvenile justice system, as well as others in relates 
systems, are working together to develop a model aftercare 
system for youth leaving delinquency placements.
    A comprehensive approach to aftercare will ensure that 
youth receive timely and appropriate social support in areas 
such as enrolling immediately in school or having a job waiting 
for them, continuing the follow-up services that are required 
for those who receive physical or behavior health treatment 
while in care, having strong adult support from family or other 
caring adults, having sufficient attention paid to developing 
their competencies while in care, so they can successfully 
return to their home and community.
    It is important that returning juveniles who need to 
continue their treatment in community have access to a 
continuum of services that have been demonstrated to be 
effective. Effective aftercare is crucial if youths are to 
benefit from residential treatment programs and successfully 
return home.
    I think we can all agree that it would be ideal if we could 
prevent youth from entering the juvenile justice system in the 
first place. Successful delinquency prevention programs attempt 
to increase protective factors, those positive traits, beliefs, 
relationships, and connections in juveniles' lives that help 
them overcome diversity. As parents, we want these for our own 
children. We should want no less for children at risk of 
entering the juvenile justice system. Without quality aftercare 
and prevention, you will see more youth violence in our 
communities.
    There are no easy solutions to addressing youth violence, 
but we do know that healthy communities, strong families, and 
quality education are critical to the success of our youth.
    I submitted additional supplemental written testimony on 
our juvenile justice and delinquency prevention plan, and an 
overview of our prevention initiative outline for more detail 
on our programs.
    Thank you for the opportunity to be here today, and I look 
forward to our working together and providing youth with the 
best opportunities to be successful.
    [The prepared statement of Mr. Pennington appears as a 
submission for the record.]
    Senator Specter. Thank you. Thank you very much, Mr. 
Pennington.
    Our next witness is Mr. David Fair, vice president for 
community impact for The United Way of Southeastern 
Pennsylvania. Previously, he worked with the city of 
Philadelphia on youth services, bachelor's degree from the 
University of Pennsylvania, and currently studying for a 
mater's degree in social work at Temple.
    Thank you for coming in today, Mr. Fair, and the floor is 
yours.

 STATEMENT OF DAVID FAIR, VICE PRESIDENT FOR COMMUNITY IMPACT 
        FOR THE UNITED WAY OF SOUTHEASTERN PENNSYLVANIA

    Mr. Fair. Thank you.
    Since 1921, our United Way has raised an invested several 
billion dollars of financial contributions and mobilized 
countless hours of volunteer energy to relieve the pain and 
suffering of vulnerable people throughout our region. And in 
those 86 years, we have learned, again and again, a very 
obvious lesson: it is often easier to despair that the problems 
facing us are intractable than it is to make the effort to 
actually solve them. We commend both of you for taking this 
opportunity today to help us focus on real solutions to the 
challenge of youth violence.
    For too long, we have invested both taxpayer and charitable 
dollars in experimenting with ever new approaches, while 
failing to direct adequate resources to the strategies that 
have already been shown to work in today's world.
    I have worked for over 30 years in a variety of health and 
social service fields, and in each environment we have always 
recognized the importance of mentoring as an essential 
component of any solutions-focused effort to help our children. 
But because of regulations, politics, habit, when it comes to 
spending money, priority has always been given to hiring and 
supporting more and more professional staff to do what we used 
to rely on families and communities to accomplish. We believe 
that solutions to the problems of youth violence can best be 
found not just in more professional services, but by investing 
in those families and communities themselves. We must continue 
to study the effectiveness of different mentoring models, but 
we don't have to wait for more studies to know what we need to 
do today
    Expansion of quality programs, matching adult and peer 
mentors to youth is needed now in all parts of our region. We 
need new approaches to offering mentoring that fit with today's 
urban realities and reflect the developmental needs of the 
youth we mentor. Traditional mentoring models, while still 
effective for many youth, sometimes fall short in helping 
today's highest-risk and older youth face the many complicated 
challenges and obstacles that limit their chances for future 
success. We need to address the shortage of male mentors and 
mentors of color, the difficulty many mentors have in relating 
to and supporting more troubled youth, the resistance many 
young have to trusting mentors because of bad experiences with 
other adults, and that--the lack of human and financial 
resources at hand, to be more creative in defining what a 
mentor is and ways of mentoring that are designed for today's 
world.
    As we've heard, more and more of our young people are 
facing more serious and numerous risks, and the mentoring they 
need is much more complicated than it used to be. More and more 
of our adult mentors are finding they can't handle the 
challenges presented by their mentees, because they have not 
been adequately trained or did not realize what they were 
getting into, and because no one individual functioning alone 
can adequately counter the influence of a poisonous peer 
culture.
    We need to accept that, at least for those youth of higher 
risk of committing or being victimized by violence, we need to 
do more than set up more opportunities for volunteer adults to 
play only a glancing role in their lives. Mentoring is not 
about ``hanging out,'' and it's no longer about simply 
providing a way for kids to get to ball games they might not 
have been able to get to on their own. For older youth, 
mentoring must be provided in the context of adolescent 
developmental needs, including working with the influence and 
importance of peer relationships and addressing the pressures 
of academic and employment demands. We have an urgent need to 
create a much larger cadre of mentors that is determined in its 
approach to this work, is willing to learn new ways of engaging 
and working with their mentees, and which comes from the 
communities where the youth live. We need to make sure that 
these mentors learn the skills they need to overcome the 
barriers that keep them from being more effective with their 
mentees, and that sometimes discourage them from sticking it 
out when the child tests their commitment. We need community 
organizations to find more effective ways to nurture and 
support both mentors and mentees in what for both can be among 
the most important relationships they ever have. We need to 
provide the context for safe and effective mentoring for older 
youth, including alternative approaches, such as group 
mentoring and career- or academically focused mentoring.
    This is not going to be easy. Today's young people are not 
growing up in the world that most of us did. A growing body of 
research is recognizing the impact of chronic violence and 
community trauma on these children. Our teens today grew up 
during the height of the crack epidemic, a time characterized 
by a spike in murder and addiction. This violence and drug 
penetration was significantly higher in the neighborhoods in 
which these young people grew up than citywide statistics 
reflect. Many of these young people grew up believing that the 
adults could not care for them adequately, or even protect 
them; and so, they organized themselves, as best they could, to 
care for and protect themselves. The resulting culture has 
redefined our work with young people, many of whom we have 
taught to be leery of adults, hypervigilant about perceived 
threats, and despondent about their own futures.
    We're not ignorant of these realities, but we are somehow 
disconnected from our power to do something about them. We 
often respond to the crisis facing so many of our children as 
if it was a forest fire. As you may know, there's a couple of 
ways to fight a forest fire. You can put it out, or you can set 
up a fire break. A fire break creates a barrier around the fire 
so that it doesn't spread. Then you wait for the fire itself to 
burn itself out.
    At United Way, we suggest that we--that various public 
systems of care recognize that quality mentoring can be an 
essential tool that they each must use to achieve their 
objectives for the people they serve. In the field of 
mentoring, we need to create new and stronger ways of training 
mentors, especially those with intensive challenges. In the 
community, we need to prioritize----
    Senator Specter. Mr. Fair, how much more time will you 
need?
    Mr. Fair. Just 15 seconds, sir.
    Senator Specter. Okay.
    Mr. Fair. In the community, we need to prioritize support 
for new strategies to recruit mentors, especially mentors of 
color and male mentors. We need to invest in new models of 
mentoring that address the developmental needs of older youth.
    Part of the 30 years I spent in social services was in the 
behavioral health field, and one thing I learned from those 
days was how important hope and expectation are to the success 
of psychotherapy. I think that is also true about mentoring. We 
ask that we resist giving in to the despair that makes us think 
that youth violence is inevitable and that it can only be 
solved with a police response. We ask that we choose to invest 
in hope for our children rather than in simply managing their 
pain. We ask that we don't just build a fire break and let the 
fire burn, because we've learned another lesson in those 86 
years. We know we have it within us to put the fire out.
    Thanks.
    [The prepared statement of Mr. Fair appears as a submission 
for the record.]
    Senator Specter. Thank you, Mr. Fair.
    Our final witness is Dr. Ira Harkavy, who is the associate 
vice president and founding director of the Center of Community 
Partnerships at the University of Pennsylvania. Dr. Harkavy 
holds a bachelor's degree and Ph.D. in history from the 
University of Pennsylvania.
    We welcome you here, Dr. Harkavy, and the floor is yours.

STATEMENT OF IRA HARKAVY, ASSOCIATE VICE PRESIDENT AND FOUNDING 
   DIRECTOR OF THE CENTER FOR COMMUNITY PARTNERSHIPS AT THE 
                   UNIVERSITY OF PENNSYLVANIA

    Mr. Harkavy. Thank you. Thank you, Senator Specter. I want 
to thank you for inviting me to testify at this most important 
hearing. I want to thank Senator Casey for your participation.
    Truly democratic partnerships between universities and 
schools is a powerful strategy for changing communities, 
school, and higher education itself, and for reducing youth 
violence. The partnerships that I will describe represent the 
fruits of over two decades of collaboration between Penn, 
community organizations, and the public schools in Philadelphia 
and West Philadelphia. I should note, Senator Specter, that 
your--you have been a supporter of this, as initially Joan 
Specter was when she was a council member, and Senator Casey's 
father, Governor Casey, provided enormous support over the 
years for this effort. I want to thank both of you for that 
support.
    The Penn Center for Community Partnerships, together with 
community partners, have created University-Assisted Community 
Schools that are centers of education and engagement that 
provide a range of services for students, their parents, and 
other community members. This approach works toward tapping, 
integrating, mobilizing, and galvanizing the resources of 
communities, including colleges and universities, to improve 
the community, the school, and the education of students.
    Somewhat more specifically, the strategy assumes that, like 
colleges and universities, public schools can function as 
environment-changing institutions that can become the strategic 
centers of broadbased partnerships that genuinely engage and 
coordinate a wide variety of community organizations and 
institutions.
    Public schools belong to all members of the community. They 
are, therefore, particularly well suited to function as 
neighborhood hubs or a nodes around which local partnerships 
and youth programs can be generated and formed. When they play 
that role, schools function as community institutions par 
excellence. They then provide a decentralized democratic 
community-based response to significant community problems and 
simultaneously help young people make positive contributions to 
the community and learn better--and learn better through 
action-oriented, collaborative community-based problem solving.
    Begun in 1985 by Penn and its school and community 
partners, the University-Assisted Community School Program now 
involves over 6,000 children, youth, parents, and community 
members each year in its six primary sites in West 
Philadelphia. Additional school-day, after-school, family, and 
community program reach several thousand more individuals.
    Through collaboration between school, university, and 
community partners, each University-Assisted Community School 
site has a variety of locally determined activities and 
partnerships, often with a focus on health, environment, arts, 
and culture. The programs engage students K through 16 in real-
world, hands-on community problem solving that is integrated 
into the school curriculum, as well as through extended-day, 
weekend, and summer programs.
    Young people at each of these schools are engaged in 
creative work designed to advance their skills, abilities, and 
personal and social development through service to their 
school, families, and community. At Penn, faculty and students 
are engaged in service learning activities that involve the 
application of knowledge to solve these problems. Over 150 
courses have been offered, 57 in 2006-07 academic year alone, 
engaging more than 60 faculty members. More than 1,400 students 
participate in academically based community service courses. 
Penn student support all aspects of this program by assisting 
evenings, weekends, and during the school day.
    Briefly summarized, I'll cite one program. That is a 
program at Sayre High School that involves the creation of a 
school-based community health center. That health center now 
involves faculty and students from throughout the University of 
Pennsylvania, literally hundreds of students and over 20 
faculty, linking the academic work of Penn students to 
improving the school and community.
    Simultaneously, the students at the Sayre School are 
learning through the delivery of healthcare and the 
implementation of health services, under the leadership of 
university faculty and students. For example, medical intake 
procedure programs have developed in which Sayre students learn 
about community health concerns, such as hypertension, obesity, 
diabetes, and gain clinical experience through working on the 
school-based health center. When this--a school health center 
will actually formally open, they will work under Penn doctors 
and nurses on a basis of linking their entire academic program.
    Also, this program has extended to after-school activities 
that involve students and faculty working after school, weekend 
programs, 21C programs, and a variety of other activities. K 
through 8 programs exist, programs for high school students, 
evening programs for adults, basketball leagues, summer 
programs serving hundreds, if not thousands, of members of that 
community and school. And a major antiviolence initiative has 
been developed by the community school and Penn's faculty and 
staff.
    The issue here is that, simultaneously, this increases and 
improves the functioning of the University of Pennsylvania and 
the functioning of the school and links to the learning and 
development of students.
    In summary, University-Assisted Community Schools serve, 
educate, and activate students and their families and other 
local residents. Students not only learn by doing, but also 
learn by and for service. Simultaneously, the university 
benefits from the unique critical opportunities community 
schools provide for learning, research, civil consciousness, 
outreach, and program development. Putting this theory into 
practice, the Sayre-Penn University-Assisted Community School 
model holds promise for West Philadelphia, Penn, other 
communities across the country. We currently work with over 100 
universities----
    Senator Specter. Dr. Harkavy, how much more time will you--
--
    Mr. Harkavy. About 17 seconds. Right at the very end.
    To speed and advance the development of University-Assisted 
Community Schools as a vehicle to make our schools and 
communities safer for students, teachers, parents, 
neighborhoods, businesses, and the Federal Government, the 
Government could, in fact, do the following:
    One, develop and apply innovative funding strategies that 
provide support to broadbased local coalitions designed to 
develop and sustain University-Assisted Community Schools.
    Two, create a multi-agency Federal commission designed to 
advance and implement University-Assisted Community Schools.
    And, three, strengthen and expand community-based work-
study to engage more students with local public schools.
    I want to thank you, Senator Specter, for your time.
    [The prepared statement of Mr. Harkavy appears as a 
submission for the record.]
    Senator Specter. Thank you, Dr. Harkavy.
    Ms. Carroll, you estimated that there are some 80,000 at-
risk young people in the city of Philadelphia. How do you come 
to that figure?
    Ms. Carroll. That's our estimate based on census data, 
that--children currently living at or below poverty level, in 
addition to other risk factors, such as parents that did not 
graduate high school, difficult family circumstances, other 
different factors that factor into children being at risk.
    Senator Specter. And you have testified--or, in your 
written testimony--that you are short some 1,300 mentors, 
because 1,300 requests have been made.
    Ms. McClanahan, you have noted in your testimony that there 
are tens of thousands of college students in the Philadelphia 
area, where they could receive credit for functioning as 
mentors. Has your organization undertaken any effort to try to 
get the colleges and universities in the area to provide 
mentors?
    Ms. McClanahan. We have not. The bulk of our work, looking 
at where mentors can be recruited from, have been with--in 
terms of new strategies--have been----
    Senator Specter. Do you think----
    Ms. McClanahan [continuing].--Actually with the----
    Senator Specter. Do you think the----
    Ms. McClanahan [continuing].--Faith-based communities.
    Senator Specter. Do you think that such an effort would be 
likely to be successful? Let me direct that question to you, 
Dr. Harkavy. The University of Pennsylvania has a relationship 
with Sayre High School. Are you able to counsel or mentor 
students at risk at Sayre?
    Mr. Harkavy. Absolutely. The mentoring occurs both through 
classroom day experiences, and also a variety of after-school 
activities, that involve a relationship in which students work 
on such issues as college access, work on issues such as 
improving academic performance, but also form a relationship in 
which the college student works with the high school student in 
a broad range of areas to improve the academic work and 
performance of the student.
    Senator Specter. How success is that?
    Mr. Harkavy. Over the period of time that we've had this 
program and a variety of others throughout this city and around 
the country, the data indicates very strong results. It 
indicates results from the youngest children all the way 
through high school.
    Senator Specter. How many students from the University of 
Pennsylvania are engaged in that program?
    Mr. Harkavy. Currently, I would say, at the Sayre program 
alone, there must be--over 200 students must be engaged----
    Senator Specter. What would you say----
    Dr. Harkavy [continuing]. With Sayre.
    Senator Specter [continuing]. The potential was for Penn 
students to participate? You have--what's the size of your 
student body now?
    Mr. Harkavy. It's about 9,000 students. There are currently 
1,400----
    Senator Specter. There is enormous potential there.
    Mr. Harkavy. Absolutely. I actually--just one note, 
quickly--there are 1,400 students currently----
    Senator Specter. Do those students get any benefit or 
credit for doing that?
    Mr. Harkavy. They do, do this. The benefit they--a number 
of the students do this work as part of their academic work at 
Penn, so they're involved in active service learning courses in 
which they focus on, How do you improve reading? How do you 
improve nutrition? How you improve healthcare in those 
communities? And I would argue, Senator Specter, that colleges 
and universities are the single greatest resource available for 
engaging mentors and helping to improve local public schooling 
in a comprehensive model in which mentoring is one strong 
component.
    Senator Specter. Mr. Fair, your written testimony, you 
point out that there are billions of dollars spent each year 
in, quote, ``not preventing situations that lead to violence, 
but in ineffective temporary fixes of a haphazard symbol--
symptom relief.'' What, specifically, would you suggest, to 
redirect those billions of dollars?
    Mr. Fair. I think, Senator, that it's important for us to 
hold accountable the more high-end interventions to the same 
standards we hold prevention services accountable to. For many 
years, I ran a--the Division of Prevention Services for the 
city's Department of Human Services, and we always were asked 
to meet incredibly high standards, and quick standards, of 
effectiveness in how we were preventing child abuse, neglect, 
or delinquency. But what we don't spend enough time looking at 
is when we place 1,700 kids in delinquent care every year, but 
don't help them reintegrate into the community, as several 
others have testified. And they recidivate, and they become 
adults who are homeless or adults who are incarcerated. But 
those are outcomes that should make us question whether or not 
incarceration of teenagers is, in fact, an appropriate 
response. My----
    Senator Specter. Mr.----
    Mr. Fair. My reference was basically that we need to 
rethink, What are we trying to achieve with taxpayer dollars? 
And stop treating just the symptoms, but also try to invest in 
prevention.
    Senator Specter. Mr. Pennington, would you have any 
projection as to how many at-risks youths there are statewide?
    Mr. Pennington. I don't have that figure on hand. I now 
that there's--in 2005, is--concerning the juvenile justice, 
there were 45 dispositions of kids in the juvenile justice 
system. But from--we administer the Federal and State funds 
throughout the State, and what I do know, from getting those 
applications in on a yearly basis, is the tremendous need out 
there, when local communities apply for funding.
    Senator Specter. Would you give some thought to that, so we 
could have a statewide projection there?
    Mr. Pennington. Sure.
    Senator Specter. The red light went on as I was asking you 
my last question, Mr. Pennington. So, I'll turn now to Senator 
Casey.
    Senator Casey. Thank you, Senator.
    I know I--in my questioning last time, I went over, so--
I've been on this committee for all but an hour, so if I want 
to stay on the committee, I'd better be careful here.
    Thank you. I want to commend all of you for your work and 
for the scholarship that went into your testimony, and, 
obviously, the hours and days and weeks and months of the work 
you do to bring us the benefit of that experience.
    One thing I wanted to ask you is something very practical. 
Senator Specter was focused on this. I want to follow up on it. 
Obviously, from the numbers that you've given him and given 
today by way of testimony, we have a big shortage. What do you 
think is the most effective recruitment strategy? Let me just 
preface this by saying that it--in my experience in State 
government, for example the Children's Health Insurance 
Program, a program that helps kids and their families, 
obviously, with healthcare, often the only way to get families 
to enroll is to buy television time. Everything else was 
secondary to television time. I don't want to be too simplistic 
here, but other than having a nonprofit or government pay for 
television ads, which I think will actually work, what else can 
we do, or what else can be done, to recruit people to serve as 
mentors?
    Ms. Carroll. I'd like to answer that, Senator Casey. One 
things we've seen--one thing we've seen other States do is to 
encourage employees of the State or the police department or 
any local or State departments, to volunteer on their lunch 
hour by giving them paid time off to do so. And that's been 
very successful in other States, like Florida. Specifically, 
the Amachi program, which targets children of incarcerated 
parents, and giving individuals working in the juvenile justice 
system time off to volunteer, which--they make great mentors; 
that would be a great strategy.
    Senator Casey. So, employers--and Senator Specter was 
mentioning the fact that government employers, like all of us 
here, should participate in that. And I think that's a great 
idea.
    Let me ask another very basic question, just to give people 
a sense of what we're talking about here. I know there may not 
be one definitive model here, but, just generally, based upon 
your experience, describe the average week of a mentor. In 
other words, how many hours, what's the interactions, how many 
hours a day. Can anyone, kind of, do a quick summary of what 
is--in other--what's it like to be a mentor, in a particular 
workweek?
    Ms. Carroll. What Big Brothers Big Sisters asks is two to 
four visits per month. We offer a variety options. So, you can 
visit a child at school during their lunch hour. You can visit 
them after school. And that may take an hour a week. But, to 
that child, it means a lot that you came to visit. We also have 
the community-based option, which can be anywhere from 2 to 4 
hours on the--in the evenings or on the weekends and lets you 
engage in a wide variety of things together, doing things in 
your community, exposing the child to new experiences. So, it 
really can vary.
    Senator Casey. And I'm almost out of time. I'm giving 
Senator Specter back a minute that I stole from him earlier. 
But I wanted to--Ms. McClanahan, I wanted to highlight 
something you testified to by way a--emphasis, not necessarily 
a question. But on page 3 of your testimony, you say, and I 
quote, at the bottom of the page, that ``mentoring can 
contribute to measurable benefits in a variety of settings, 
including programs for high-risk youth, violence-prone youth, 
and ex-prisoners.'' So, is that a longer way of saying 
``mentoring works?'' You can say that definitively?
    Ms. McClanahan. We can say definitively that mentoring 
works, with the important implication, as I talked about during 
my testimony, that it also needs to be coupled, for this 
population, with other core services, like employment and 
education.
    Senator Casey. Thank you.
    Senator Specter. Well, thank you very much, Senator Casey, 
for your participation. And thank you, ladies and gentlemen.
    Without objection, my full statement will be made a part of 
the record.
    And I want to thank the Constitution Center and its 
president, Joe Torricella, for making available these 
facilities to us again today. We have been here with some 
frequency in the past on our hearings, and it is a great spot 
to talk about matters of public policy.
    And for those who may be watching on the Pennsylvania Cable 
Network, let me say that it's a rare treat to come to the 
Constitution Center and to come through the interactive 
exhibits which are here. You can ask a question and get a 
dissertation on cases argued in the Supreme Court of the United 
States. You can vote for President, whether you think President 
Washington or President Lincoln or President Kennedy was the 
greatest President. We have a set, set up, where you can raise 
your hand and be sworn in as President of the United States, 
and have your picture taken as if you were really there. That's 
the closest I've come. And others might----
    [Laughter.]
    Senator Specter [continuing]. Be interested in having a 
similar experience. So, that--the Constitution Center is a 
great spot to come and visit.
    We intend to follow up on this hearing in a number of 
directions. Senator Casey and I, on the work of the Senate, 
will see if we can find some directed funding to those other 
nine police districts, at $1.6 million each, which have had 
such good results. And we'll take a look at the 18- to 24-year 
category that testimony was given to. And I intend to write to 
all the university presidents, and college, and will ask 
Senator Casey to join me in suggesting that they try to 
structure programs to give credit or encourage students to 
participate as mentors. With the testimony of Ms. Carroll, of 
80,000 at-risk students, that's quite a lot, and there are 
1,300 seeking mentors right now. And Ms. Carroll's additional 
testimony, that many who need mentors haven't requested them. 
And I'm going to follow up with Director Ramos on the question 
of whether we might find some volunteer funds to clean up the--
to make the streets safe, as people are willing to pay to make 
the streets clean. Safety--cleanliness is next to godliness. 
Safety is survival, so that--that's another avenue to be 
directed.
    And I would encourage the media covering this event to put 
the specific request by Bob Casey and Arlen Specter, that 
people ought to come forward and ought to volunteer to be 
mentors. And write to Senator Casey or myself on that subject, 
or pick up the phone and call my Philadelphia office, 215 
repeat that, Michael?
    Senator Specter. 215-597-7200.
    That concludes our hearing. Thank you all very much.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                 <all>

</pre></body></html>
